Message from the Inspector General




      I am pleased to present the results and accomplishments of the Office of Inspector General from
April 1, 2003, through September 30, 2003. During this reporting period, we continued to concentrate our
efforts on helping the Department of the Interior address its most serious management challenges, several of
which are long-standing.

      More disturbing information was revealed in the area of land exchanges and appraisals, which have
been the subject of long-standing critique by our office and the General Accounting Office. In our August
2003 report of investigation, we exposed actions by the Department’s land exchange negotiators who, with
the assistance of members of the Department’s Solicitor’s Office, made efforts to conceal the actual terms
of the San Rafael (Utah) land exchange agreement from decision-makers. Though criminal prosecution was
declined, administrative action by Department officials is pending. The results of our lengthy investigation
into the San Rafael exchange suggest that the Secretary needs to expand appraisal process reforms
currently focused on administrative land exchanges to include legislative exchanges. In a June 2003 press
release, the Secretary announced a plan to consolidate real estate appraisal functions now performed by
several bureaus within the Department, a major reform that has been recommended for decades. In July,
the Secretary announced the establishment of an Appraisal Reform Implementation Team, which has been
charged with devising an action plan and schedule for consolidation. Our recommendations provide the
foundation to ensure that all appraisals are credible and independent and, if implemented effectively, should
restore public confidence in the Department’s ability to carry out land transactions in a manner that protects
the public interest.

     Regarding ongoing administrative management challenges facing the Department, we uncovered a $20
million surplus in the Department’s Working Capital Fund, a surplus of which Department officials were
unaware. We initiated this evaluation at the request of the U.S. House of Representatives’ Committee on
Appropriations, Subcommittee on Interior and Related Agencies. We made nine recommendations, all of
which the Department agreed with, for improving departmental management and Working Capital Fund
operations.

      During this reporting period, we reported on several significant department-wide issues that garnered
extensive Congressional, media, and public attention. Of particular note was our report on security over
national “icons,” which was our third in a series of assessments of the Department’s Homeland Security
efforts. This assessment focused on the status of security at the National Park Service’s Icon Parks, which
have been designated as key assets by the Department. Similar to what we reported in our last Semiannual
Report, we continue to question the Department’s sense of urgency in implementing security measures and,
as a result, have included security concerns in the Department’s list of Top Management Challenges. In
particular, National Park Service delayed, postponed, or ignored steps to protect national “icons,” as
funding for enhanced security competes with other park projects. We found that National Park Service and
park officials remain somewhat nonchalant and lackadaisical in their approach to security, unconvinced of
the necessity of security measures. Park officials admitted to feeling little pressure to perform, and they are
not being held accountable for noncompliance.



                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
Message from the Inspector General



      We also uncovered continuing deficiencies and weaknesses in the management of and security over
information and information technology systems, including the Department’s Web sites. In particular, we
found that over all, the Department has not managed its web sites efficiently, cost-effectively, or securely.
We estimated that the Department currently has approximately 31,000 web sites presenting between three
and five million pages of information, with maintenance costs that could be as high as $220 million annually.
For security over IT systems in general, we found that although the Department continues to improve
information systems security, until the bureaus and offices are in full compliance, the Department should
continue to report to Congress that the lack of an adequate information security program is a material
weakness. We are currently reviewing a proactive penetration testing approach to identify network security
issues for department managers.

     Also during this reporting period, we issued a progress report on the Department’s implementation of
Secretarial Directives regarding law enforcement reforms. These reforms were dictated by the Secretary as
an immediate result of our January 2002 report “Disquieting State of Disorder: An Assessment of
Department of the Interior Law Enforcement.” In our recent Progress Report, we found that the bureaus
and the Department’s Office of Law Enforcement and Security have implemented only 8 of the 25
Secretarial Directives, or less than one third. As is the case with the security program, a lack of a sense of
urgency continues and public and employee safety remains a significant concern.

      Our office is dedicated to ensuring that the Department attains a higher level of integrity and
accountability through our audit and investigative activities, and we are committed to not only reporting
waste, fraud, abuse and mismanagement, but also partnering with the Department to correct and prevent
risks and vulnerabilities. We are confident that this strategic focus will continue to be helpful to the
Secretary and decision-makers within the Department and the Congress.




                                                 Earl E. Devaney
                                                 Inspector General




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                                                                                            Table of Contents

                                                                                                                                    Page
Statistical Highlights.............................................................................................................. ii
Organization ...........................................................................................................................1
Mission and Top Management Challenges ............................................................................2
Significant Audit Activities and Investigations ......................................................................3
   Department of the Interior..................................................................................................3
   Bureau of Indian Affairs.....................................................................................................5
   Bureau of Land Management ...........................................................................................14
   Minerals Management Service.........................................................................................16
   National Park Service.......................................................................................................18
   Office of Insular Affairs ...................................................................................................20
   Office of Surface Mining Reclamation and Enforcement ...............................................23
   U.S. Fish and Wildlife Service.........................................................................................24

Appendices
 1 - Summary of Audit and Related Activities From April 1, 2003, Through
     September 30, 2003 ......................................................................................................27
 2 - Reports Issued or Processed
     During the Six-Month Period That Ended September 30, 2003 ...................................28
        - Internal Reports......................................................................................................28
        - Contract and Grant Audits .....................................................................................30
        - Single Audits..........................................................................................................31
 3 - Monetary Impact of Audit Activities From April 1, 2003, Through
     September 30, 2003 ......................................................................................................38
 4 - Nonfederal Funding Included in Monetary Impact of Audit Activities
     During the 6-Month Period That Ended September 30, 2003......................................39
 5 - Audit Resolution Activities...........................................................................................40
        - Table I - Inspector General Audit Reports With Questioned Costs.......................40
        - Table II - Inspector General Audit Reports With Recommendations That
          Funds be Put to Better Use ....................................................................................41
        - Table III - Inspector General Audit Reports With Lost or Potential
          Additional Revenues .............................................................................................42
 6 - Summary of Audit Reports Over Six Months Old Pending Management Decisions...43
        - Internal Audits........................................................................................................43
        - Contract and Grant Audits .....................................................................................43
        - Single Audits..........................................................................................................45
 7 - Summary of Internal Audit Reports Over Six Months Old Pending
     Corrective Action..........................................................................................................51
 8 - Summary of Insular Area Reports With Recommendations Over Six Months Old .....55
        - Internal Audits........................................................................................................55
        - Single Audits..........................................................................................................56
 9 - Program Integrity Reports Issued
     During the Six-Month Period That Ended September 30, 2003 ...................................58
10 - Cross-References to the Inspector General Act ............................................................59


                   Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                    i
Statistical Hightlights




                                   Statistical Highlights

                                            Audit Activitiy

    Reports Issued
       » Internal Audits                                                 26
       » Contracts and Grant Audits                                      04
                                                                         30                    30

    Single Audits Processed                                                                   191




                                            Audit Impacts
    Total Monetary Impact (Dollar Amounts in Millions)
       » Questioned Costs (Includes Unsupported Costs)              $11.01
       » Recommendations that Funds be Put to Better Use             85.38
       » Lost or Potential Additional Revenues                       19.41
                                                                   $115.80                 $115.80

    Internal Audit Recommendations Made                                                       127

    Internal Audit Recommendations Resolved                                                   114



                                             Investigative
    Cases Closed                                                                              109

    New Cases Opened                                                                          196

    Hotline Complaints/Inquiries Received                                                      37




                   Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                    ii
                                                                                        Statistical Hightlights




                         S ta ti s ti c a l H i g h l i g h ts (c o n ti n u e d )

Criminal

  Indictments/Information                                                                      15

  Convictions                                                                                  11

  Sentencings                                                                               14
    » Jail                                                                            91 Months
    » Probation                                                                      420 Months
    » Community Service                                                               758 Hours

  Criminal Judgments/Restitutions                                                      $957,475

  Criminal Matters Referred for Prosecution                                                    25

  Criminal Matters Declined                                                                    13

Civil

  Civil Referrals                                                                                4

  Civil Recoveries                                                                   $49,000,000

  Civil Declinations                                                                             1

Administrative

  Personnel Actions
   » Suspensions                                                                                4
   » Resignations                                                                               6
   » Retirements                                                                                1
   » Reprimands/Counseling                                                                     16
   » Bill for Collection Issued                                                                 1
   » Removals                                                                                   2
   » General Policy Actions                                                                     8

  Administrative Recoveries/Restitutions                                                    $434

  Contractor Debarment                                                                           3




        Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                         iii
                                                                                                              Inspector General
                                                                                                                                                                        Organization




                                                                                                                   Deputy
                                                                                                              Inspector General



                                                                          Associate Inspector
                                                                             General for                                                         Office of
                                                                            Whistleblower                                                     General Counsel
                                                                              Protection




                                  1
                                                                        Assistant Inspector                                                     Assistant Inspector
                                                                                                Assistant Inspector     Assistant Inspector        General for
                                                                           General for             General for             General for        Administrative Services
                                                                              Audits              Investigations         Human Capital         & Information Mgmt.
                                                                                                                          Management
                                                                           Deputy AIG               Deputy AIG                                      Deputy AIG



                                                                                                                                                 Chief Information




Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                                                                                                                      Officer
                                                                       Mission and Top Management Challenges




                                                M ISSION
                 The mission of the Office of Inspector General is to promote excellence
                   and integrity in the programs, operations, and management of the
                                        Department of the Interior.

                                            Responsibilities
         The Office of Inspector General (OIG) is responsible for independently and objectively identifying
risks and vulnerabilities that directly impact, or could impact, the Department of the Interior’s (DOI or the
Department) ability to accomplish its mission. We are required to keep the Secretary and the Congress fully
and currently informed about problems and deficiencies relating to the administration of departmental
programs and operations. Effective implementation of this mandate addresses the public’s demand for
greater accountability and integrity in the administration of government programs and operations and the
demand for programs that work better, cost less, and get the results Americans care about most.

                                                Activities
        The OIG accomplishes its mission by conducting audits, investigations, evaluations, and reviews
relating to the programs and operations of the Department. Our activities are tied directly to the
Department’s major responsibilities and are designed to assist the Department in developing solutions for its
most serious management and program challenges, most notably cross-cutting or department-wide issues.
They are also designed to ensure that we are keeping critical issues on the “radar screen” of key decision-
makers. By continually keeping critical issues prominent, we greatly influence and increase the likelihood
that desired outcomes and results that benefit the American taxpayer will be achieved.

                            D EPARTMENT OF THE I NTERIOR’ S
                            T OP M ANAGMENT C HALLENGES
                       As reported in the DOI FY 2003 Report on Accountability:

                                ¹   Financial Management
                                ¹   Information Technology                      Click Here For Full Report
                                ¹   Health, Safety and Emergency Management
                                ¹   Maintenance of Facilities
                                ¹   Responsibility to Indians and Insular Areas
                                ¹   Resource Protection and Restoration
                                ¹   Revenue Collections
                                ¹   Procurement, Contracts and Grants



                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  2
Significant Audit Activities and Investigations




              Department of the Interior

Former Omega Travel Services Employee Debarred from Government Travel Accounts

     Terre Brizzolara, a former employee with Omega Travel (Omega), which provides travel services to
the Department of the Interior, was debarred for three years after she pleaded guilty in U.S. District Court
to charges of theft. The General Services Administration (GSA) found that Brizzolara had created a fictitious
Omega employee to embezzle money from the company.

     GSA referred the matter to our office for administrative debarment, and the DOI Office of Acquisition
and Property Management successfully debarred Brizzolara for a period of three years. Although Brizzolara
had access to government accounts for travel services while working for Omega, we found that she had not
used this access for her own personal gain.

     This investigation was a cooperative effort among officials at GSA, DOI, and OIG.

Department Unaware of a $20 Million Surplus in its Working Capital Fund
                                                                                                    Click Here For Full Report

      At the request of the Committee on
Appropriations, Subcommittee on Interior and Related
Agencies, we performed an evaluation of the
Department of the Interior’s Working Capital Fund and
found that the Department was unaware of a $20
million surplus that the fund had accumulated, among
other concerns.

      In the absence of historical information, we believe that overcharging customers may have been the
principal cause of the surplus; however, we also found instances where customers were undercharged. We
attribute this to an inadequate accounting system and no standard billing process.

      The Department’s National Business Center administers the Working Capital Fund, which is used to
finance common support services such as security, accounting, and contracting for the Department and its
bureaus and offices, as well as for other federal agencies. The fund is replenished through billing these
entities for services provided. Our evaluation disclosed, in part, that:

                 ¹        The National Business Center planned to increase its prices to fund several
                          unauthorized reserves.

                 ¹        Financial data was incomplete, and it was unclear whether individual product lines
                          and services provided by the Working Capital Fund were making or losing money.

                 ¹        The Department used the Working Capital Fund to pay for activities that also
                          received direct appropriations.

                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                   3
                                                                   Significant Audit Activities and Investigations




     We did find, however, that credit card rebates, which are collected and managed through the Working
Capital Fund, were being used for authorized activities in accordance with legislative intent.

     We made nine recommendations to improve departmental management and the National Business
Center Working Capital Fund operations. The Department’s Office of Policy, Management and Budget
agreed with all nine.

Department Faces Challenges in Effectively Managing its Web Sites                         Click Here For Full Report


     We found that over all, the Department of the Interior has not managed its Web sites efficiently, cost-
effectively, or securely. We estimated that the Department currently has approximately 31,000 web sites
presenting between three to five million pages of information with maintenance costs that could be as high as
$220 million annually.

      We also found that security over the Department’s Web
site needs to be enhanced. We identified practices used by
industry, state, and other federal agencies, as well as those
established by the Office of Management and Budget and the
National Institute of Standards and Technology, for establishing
a sound framework to improve efficiency and transform the site
into a more customer-centered Web presence. We believe the
proposed practices present the Department with an excellent
opportunity to reduce duplication, focus on the customer,
enhance security, maintain privacy, and ultimately reduce costs.
                                                                          The Department’s new Web site
    The Department has taken action to address the issues raised by our report, including creating a new
Web site.


Although Improving, Information Security Program Shows Weaknesses

      The Federal Information Security Management Act of 2002 requires the OIG to annually evaluate the
Department’s information security program. The purpose of the evaluation is to determine if the Department
has an information security program that satisfies the requirements of the Act. The Act requires that agency
security programs adequately safeguard information and information systems from unauthorized access, use,
disclosure, disruption, modification, and destruction.

     We found that although the Department continues to improve information systems security, until the
bureaus and offices are in full compliance with the Act, the Department should continue to report to
Congress that the lack of an adequate information security program is a material weakness.



                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  4
Significant Audit Activities and Investigations




                Bureau of Indian Affairs


Former BIA Contracting Officer’s Technical Representative Found Guilty at Trial

        Herman G. Fisher, a former contracting officer’s technical
representative for the BIA, was found guilty of demanding, accepting, and
receiving a bribe from a business owner who was providing portable
classrooms to the BIA.

        Fisher had threatened that he would hold up BIA payments for
work already done, cut off future orders, and terminate and blackball the
contractor. Fisher was observed demanding and taking bribes from the
businessman at the contractor’s office.

        The United States Attorney for the District of New Mexico
commented publicly that this particular case, which was a joint investigation
with the FBI, was “a model of cooperation between the agencies
involved.”

Former Uniband Inc. CEO Sentenced in Theft and Money-Laundering Case

         After pleading guilty to theft, money laundering, conspiracy, and a criminal asset
forfeiture, Raymond Poitra, the former Chief Executive Officer of Uniband Inc. was sentenced in
the U.S. District Court of North Dakota to 57 months of imprisonment and ordered to pay
$577,397 in restitution to the Turtle Mountain Band of Chippewa Indians. In addition, following
his release from prison, Poitra must complete a two-year period of supervised release.

        As reported in our last Semiannual Report, these criminal charges were filed against
Poitra after our investigation identified a series of schemes where Poitra, in his capacity as CEO
of Uniband Inc., a Turtle Mountain Band of Chippewa Indians corporation that received
approximately $44 million annually in federal contracts, stole and laundered approximately
$577,000 in Uniband funds through his use of nominee companies. Poitra was the last of the
four defendants to be sentenced in this matter.




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                   5
                                                                       Significant Audit Activities and Investigations




Contractor Sentenced in BIA Contract Fraud Investigation

         Anthony L. Dohi, owner of Dohi Industries Inc., a contractor in Albuquerque, New Mexico,
was sentenced in U.S. District Court for the District of New Mexico to six months of home
confinement and five years of supervised probation for his role in a contract fraud scheme involving
his father-in-law, former BIA contracting officer Stephen Calvin.

         As reported in our April 2003 Semiannual Report, Calvin used his position at BIA to award
three contracts to Dohi Industries by circumventing proper bidding procedures, providing
confidential pricing information to Dohi, and creating falsified contract documents for Dohi Industries.
Calvin was sentenced to 18 months of imprisonment and 36 months of supervised release for his
part in the scheme. Dohi, who had earlier pleaded guilty to theft charges, was also ordered to pay
restitution of $242,036.

Tribal Court Employees Charged with Conspiracy, Embezzlement, and False
Statements

        Four present and former employees of the Turtle Mountain Band of Chippewa Indians
Tribal Court were indicted by a federal grand jury in the District of North Dakota in three
separate indictments with eight felony violations, including conspiracy,
embezzlement, and false statements.

        The first indictment charges Yvette LaFloe Falcon, current Chief
Clerk of Court; and Sharon Malaterre, the former Chief Judge, Turtle
Mountain Band of Chippewa Indians Court, with one count of conspiracy
and multiple counts of embezzlement and theft from an Indian tribal
organization. The indictment alleges a scheme in which LaFloe Falcon
and Malaterre defrauded the court through theft of travel funds and
creation and submission of false travel documents.

         A second indictment charged Stephanie R. Jay, small claims clerk,
and Angel Poitra, former drug court employee, with theft from an Indian
tribal organization and making false statements. These charges also relate
to the theft of travel funds and submission of false travel documents. A
charge of making a false statement during the course of the investigation
was added following Jay’s attempt to conceal her thefts.




                     Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                      6
Significant Audit Activities and Investigations




         The last indictment charged Yvette LaFloe Falcon, Chief Clerk of Court, with theft from an
Indian tribal organization regarding the theft of court fines and restitution payments.

        The Turtle Mountain Band of Chippewa Indians court receives approximately $300,000 in
annual operating revenues from BIA on the basis of a BIA Public Law 93-638 contract. The
indictments were the result of a cooperative investigation conducted by our office in conjunction with
the U.S. Department of Justice OIG.

“Operation Card Trix” Yields New Charges in Kickback Scheme

        Since our April 2003 Semiannual Report, “Operation Card Trix” expanded into a multi-state
investigation when two additional BIA employees, one from Wyoming and another from South
Dakota, were charged with accepting illegal payments from Kirm G. Kath, sales representative for
West Lite Corporation, in exchange for improperly using their government credit cards to purchase
products or services.

         Edwin St. Clair, a former BIA Facilities Management Branch supervisor at the Wind River
Agency in Wyoming, pleaded guilty in the District of Wyoming to a charge that he accepted an illegal
gratuity as a kickback for his purchase of electrical merchandise from Kath. Kath previously pleaded
guilty to related charges for his role in the plot and was sentenced to serve six and a half years of
imprisonment in a separate investigation in Montana. The purchases were made using St. Clair’s
government credit card. St. Clair resigned from federal service, and his sentencing is pending.

         Monty Whalen, a BIA maintenance mechanic, Facilities Management Branch, Pine Ridge Indian
reservation, was indicted by a federal grand jury in the District of South Dakota on five counts of bribery for
accepting payments from Kath in connection with improper purchases of $48,500 in electrical merchandise
from West Lite. Whalen, who is still employed by the BIA, was released on his own recognizance following
his arrest. Trial is pending.

     Two other defendants, whose convictions were reported in the April 2003 Semiannual Report, were
recently sentenced for their roles in the kickback schemes. Charles C. Dillon, a BIA supervisor for the
Crow Agency Facilities Management Branch, solicited and received payments from Kath and David D.
Bauman, vice president of Pro Tech Mechanical, in exchange for using a government credit card to
purchase products or services from West Lite and Pro Tech. Dillon pleaded guilty to three counts of
bribery, two counts of wire fraud, and one count of making a false statement. He was removed from federal
service and was sentenced to 21 months of imprisonment and 36 months of supervised release. He was
ordered to pay restitution in the amount of $72,216.




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                   7
                                                                         Significant Audit Activities and Investigations




         Emmett Old Bull, a BIA accounting technician at the Facilities Management Branch, solicited
and received payments from Kath and Bauman in exchange for using a government credit card to
purchase products or services from West Lite and Pro Tech. Old Bull resigned from federal service
after his indictment, entered a plea of guilty to a felony charge of accepting an illegal gratuity, and was
sentenced to 36 months of supervised
probation. Kath and Bauman’s sentences
were detailed in the April 2003 Semiannual
report. Both are currently serving their
sentences in a federal corrections facility.

        Members of our investigations and
audits divisions were joined in this task
force investigation by the Department of
Health and Human Services OIG, the
Department of Housing and Urban
Development OIG, the IRS-Criminal
Investigation Division, and investigators of
the U.S. Attorneys Office in Montana.




                      Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                       8
Significant Audit Activities and Investigations



Former Oklahoma Director of Tribal Assistance Sentenced in Bribery Scheme

        Phillip Bread, the former director of Tribal Assistance for the Oklahoma Department of Commerce,
was sentenced in U.S. District Court for the Western District of Oklahoma to a term of 12 months of
imprisonment and three years of supervised release. Bread pleaded guilty to accepting a $6,250 bribe from
a company representative with Aquel, which sells water purification and filter equipment, in exchange for
helping the company get a contract to sell water purification and filtration devices to the Kiowa Tribe of
Oklahoma. Bread was ordered to pay a $2,000 fine.

         Bread held elected office with the Kiowa Tribe of Oklahoma, both as a
committee member and as vice chairman, and was involved in making decisions
on the expenditure of both federal and tribal funds. At the same time, Bread
was employed by the State of Oklahoma Department of Commerce as the
Director of Tribal Assistance and was responsible for developing business deals
between companies and Oklahoma Indian tribes. Bread abused his position,
both as an Oklahoma state official and as an elected official of the Kiowa Tribe
of Oklahoma, by personally accepting over $15,000 in bribes from company
officials in exchange for business opportunities with Oklahoma Indian tribes.


Asphalt Company Convicted of Submitting False Claim in Highway Repair Scheme

         Asphalt Supply and Service Inc. and the company’s president, Robert R. Zimmerman of Laurel,
Montana, were convicted of submitting a false claim and making false statements at trial in the District Court
of Montana. During the 8-day trial it was revealed that Asphalt Supply and Service submitted altered and
fictitious invoices to BIA for reimbursement for expenses that were, in fact, not incurred. The investigation
revealed that the company was awarded a contract for the supply and delivery of asphalt materials needed
for the repair of a highway on the Pine Ridge Indian reservation.

         Due to circumstances beyond the control of the BIA and Asphalt Supply and Service, the delivery
of the asphalt materials could not be made. Nonetheless, Asphalt Supply and Service submitted a claim for
reimbursement for the cost of the perishable materials it never procured and justified the claim by presenting
altered and fictitious invoices to support its claim for more than $175,000. Sentencing is pending.

       Based on the initial indictment, the Department’s Office of Acquisition and Property Management
suspended Zimmerman and the asphalt company from participating in government contracts. The permanent
debarment is pending.




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                   9
                                                                   Significant Audit Activities and Investigations



Former Indian School Superintendent Sentenced

     Joyce Burr, the former superintendent of the Circle of Nations
School in Wahpeton, North Dakota, pled guilty to theft and
embezzlement from an Indian tribal organization and was sentenced
on the same date to 24 months of probation. She was ordered to
pay restitution in the amount of $49,711.

      The Circle of Nations School, which receives millions of
dollars annually through grants from the BIA, provides dormitory
services and schooling to troubled Indian children from tribes
located in a five-state area. Our investigation disclosed that during
a 17-month time period between 1999 and 2000, Burr used a
school credit card to obtain approximately $65,000 through cash
advances at casinos for her own personal benefit. In addition, the
investigation disclosed that Burr fraudulently obtained loans from
the Circle of Nations School for $15,000 and $25,000, which she,
in turn, used to reimburse the school for her aforementioned credit
card use.

Tribal Chairman Sentenced in Vehicle-Swapping Scheme

     Crow Tribal Chairman Clifford G. BirdinGround was sentenced in U.S. District Court of Montana to
37 months of imprisonment and 36 months of supervised release following his guilty plea to charges that he
received bribes from an automobile dealership in return for the purchase of vehicles by the Crow Tribe of
Indians. He was ordered to pay restitution in the amount of $11,100.

     A $559,000 vehicle-swapping scheme that began less than two weeks after BirdinGround took office
allowed vehicles owned by the tribe to be traded in to a local car dealership for credit against which
BirdinGround’s friends and relatives purchased vehicles for their personal use. BirdinGround also used
proceeds from the scheme to pay for repairs on his personal vehicles. BirdinGround pled guilty to one
count of bribery concerning programs receiving federal funds.

      As previously reported, Alexander R. BirdinGround, brother of Clifford G. BirdinGround, pleaded
guilty to charges of conspiracy and theft from an Indian tribal organization and was sentenced to three years
of probation and ordered to pay restitution to the Crow Tribe in the amount of $26,444.




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 10
Significant Audit Activities and Investigations




Former Indian Tribal Financial Officer Pleads Guilty to Embezzlement

         Keo Michael Scott, former accounts payable officer, Wichita and Affiliated Tribes, Anadarko,
Oklahoma, pled guilty in U.S. District Court, Western District of Oklahoma, to charges of embezzling higher
education funds from Wichita and Affiliated Tribes. The investigation determined that Scott embezzled both
federal funds and tribal funds from the tribe, including higher education funds and tribal funds set aside for
children’s school clothing.

         Scott used his position to manipulate the Tribes’ accounts payable accounting system to embezzle a
total of $30,409 from the tribe, including $19,542 from P.L. 93-638 Higher Education Funds, $3,450 from
the tribe’s Children’s Clothing Assistance Program, and $7,417 in tribal credit card transactions, which he
used for his personal benefit. Sentencing is pending.


Texas Man Convicted of Wire Fraud, False Statements, and Money Laundering

        Howard E. Liner, from Katy, Texas, was convicted on 19 counts of wire fraud, false statements,
and money laundering. Liner received more than $1.6 million from investors, including the Upper and
Lower Sioux Community Tribes in Minnesota, for a high-yield investment program scheme that promised
sensational returns. Liner told investors that the programs were sponsored or overseen by the U.S.
Treasury, the Department of Defense, and the Federal Reserve.

        From 1999 through 2003, Liner collected money, including $400,000 from the Upper and Lower
Sioux Community Tribes, and falsely represented that the investors’ money would be placed in secret
investment opportunities that produced returns as high as 100 percent per month. Our investigation
revealed that these trading programs were nonexistent. Instead, he diverted investors’ funds for his own
personal benefit and made a few reassuring payments to investors to create the appearance that the trading
programs were actually producing profits. Liner never returned the money to investors. When investors
began to threaten legal action, Liner falsely advised investors that the federal government froze the money,
that another person stole the funds, and that a flood in Houston had damaged all the bank records.

         Liner faces a maximum penalty of five years of imprisonment and a $250,000 fine on each count of
false statement and wire fraud and up to 10 years in prison and a $250,000 fine on the money laundering
count. Liner was taken into custody following the verdict. A sentencing date has not been set.

        This case is the result of a joint investigation by our office and the FBI.




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  11
                                                                    Significant Audit Activities and Investigations



Tribal Revenue Allocation Plans not Adequately Reviewed or Monitored
      BIA reviews and approves Revenue Allocation Plans submitted by Indian tribes participating in gaming
operations to ensure that gaming revenues are responsibly distributed. In accordance with the Indian
Gaming Regulatory Act, these revenues should be used to promote “tribal economic development, self
sufficiency, and strong tribal governments.” To make per capita payments (gaming revenues distributed
directly to tribal members), tribes must have a plan approved by the Secretary.
     At the request of the Secretary, we evaluated BIA’s process to review and approve the plans and
concluded that:

                ¹        BIA did not consistently determine if tribes reserved adequate amounts of gaming
                         profits for tribal government programs and economic development.
                                                                                         Click Here For Full Report
                ¹        BIA did not consistently document the review process.

      We also found that no one monitors a tribe’s compliance with approved plans or systematically
enforces against noncompliance. BIA does not have the authority to ensure that tribes comply and the
National Indian Gaming Commission only has the authority to impose civil penalties against noncompliant
tribes. In addition, the National Indian Gaming Commission does not have a mechanism for identifying
noncompliant tribes. Consequently, the approval process is one of voluntary self-compliance.

     Our report presents several options for the Department to consider, addressing both the lack of
monitoring and possible improvements to BIA’s approval process. The Department agreed with our three
recommendations, which were referred to Policy, Management and Budget for tracking of implementation.

Opinion on Financial Statements is Unqualified, but Weaknesses Persist

     The BIA received an unqualified opinion on its financial statements in FY 2002. The financial
statement audit report, however, identified internal control weaknesses in the following areas, the first four of
which are considered material:

                                                                                             Click Here For Full Report
                ¹        Information technology systems
                ¹        Financial reporting, oversight, and organization structure
                ¹        Processing of trust transactions
                ¹        Legal liabilities
                ¹        Property, plant, and equipment
                ¹        Environmental liabilities
                ¹        Intra-governmental eliminations
                ¹        Unbilled/reimbursable accounts receivable
                ¹        Undelivered orders


                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 12
Significant Audit Activities and Investigations




       Additionally, BIA was not in substantial compliance with the three requirements of the Federal
Financial Management Improvement Act of 1996. Specifically, BIA’s financial management systems did not
substantially comply with federal financial management systems requirements, federal accounting standards,
and the U.S. Standard General Ledger at the transaction level. Also, BIA was not in compliance with the
Debt Collection Improvement Act of 1996.

BIA Needs to Ensure that Indian Schools are not Oversized
      BIA’s acceptance of inflated school enrollment estimates resulted in the construction of schools for
Indian children that were larger than required. The schools were to replace already existing schools that
were in poor condition. We estimate that, between 1993 and 1999, BIA spent $37 million for unneeded
school space and has future plans to spend $74 million for excess school space. The inflated estimates
resulted because BIA had not developed or implemented adequate enrollment projection policies and
procedures.

      BIA generally agreed with our recommendations and is taking actions to correct and strengthen its
planning and design process. BIA has implemented interim guidelines for calculating enrollment projections
for future replacement school construction and has agreed to determine whether applying these guidelines to
projects currently in the designing and planning phase is cost effective and legally feasible.

                                                                                Click Here For Full Report




                               Rough Rock Community School, located in Chinle, Arizona




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  13
                                                                   Significant Audit Activities and Investigations




                    Bureau of Land Management



Facts Concealed from Congress in San Rafael Land Exchange Negotiation

         A Bureau of Land management (BLM) appraiser alleged that federal negotiators for the proposed
San Rafael Land Exchange between the Interior Department and the State of Utah improperly valued
federal mineral resources and treated valuation data and appraisals inconsistently. An investigation into these
allegations found that Department officials:

                ¹       Negotiated away a substantial interest in the potentially very valuable oil shale
                        resource of the Ua-Ub tract.

                ¹       Devalued the Uintah Basin mineral property by 50 percent without apparent
                        authority.

                ¹       Entered into a deferred purchase agreement to acquire State Desert Tortoise lands
                        using revenue generated from the federal Walker Flat coal tract, even though this
                        was noteconomically viable.

                ¹       Failed to value the State Desert Tortoise land in a manner consistent with the
                        valuation of certain other federal properties.

                ¹       Inappropriately used a consulting report to substantiate that properties to be
                        exchanged were of approximately equal value.

       The investigation also revealed that the Department’s negotiators, with the assistance of members of
the Department’s Solicitor’s Office, made efforts to conceal the actual results of the negotiations from
Department decision-makers and the U.S. Congress. Legislation that would have ratified the exchange
agreement passed the U.S. House of Representatives but was not considered by the U.S. Senate, so the
exchange was not consummated. Though criminal prosecution was declined, administrative action by
Department officials is pending.




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 14
Significant Audit Activities and Investigations




BLM Land Sales Program in Southern Nevada is a Model for Success

      BLM has significantly expedited the sale of federal land in Southern Nevada by using the public
auction approach advocated in the Southern Nevada Public Land Management Act. The use of competitive
sales has worked well in a volatile real estate market, such as Las Vegas, where there are more bidders than
land available. With full and open competition in the private sector, the marketplace, rather than appraisals,
has established the sales price, resulting in federal lands selling, on average, for nearly 50 percent above
their estimated market value. As of March 31, 2003, the land sales program had garnered about $333
million in receipts.

     A notable aspect of BLM’s land sales program has been the partnerships developed with local
governments to jointly select the lands to be sold. Through these partnerships, local governments have
selected federal lands needed for community goals and nominated lands for sale to ease the population
growth pangs of cities, including Las Vegas, that are landlocked by federal lands.

     The magnitude of land sale receipts mandates strict BLM oversight and control of administrative
expenses, such as salaries, to implement the Act. BLM’s State Director for Nevada has said that effective
fund control over administrative expenses will be enforced.
                                                                   Click Here For Full Report




                            Federal and private land conveyed to the Red Rock Canyon National
                            Conservation Area under the Southern Nevada Public Land
                            Management Act




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  15
                                                                    Significant Audit Activities and Investigations




              Minerals Management Service


Shell Oil Settles Lawsuit for $49 Million after Admitting to Making False Reports
        In a $49 million settlement agreement, Shell Oil Company acknowledged its unauthorized venting
and flaring of natural gas, the falsity of its reports to the government with respect to the volumes of gas
produced and flared, and its failure to properly pay royalties on gas produced from Auger and six other
Shell Gulf of Mexico production facilities. This is the largest settlement of its type in the history of the
Minerals Management Service (MMS).

         Federal law prohibits offshore oil and gas operators from flaring or venting natural gas unless the
volume of gas to be flared or vented is small and cannot be economically recovered or the operator first
gets permission from MMS. The lawsuit filed by the government as a result of our investigation charged that
for certain time periods and leases, Shell vented and flared up to 6 million cubic feet of gas per day from the
Auger facility alone – or more than 100 times the amount considered to be within limits by federal
regulators.

         Agents of our investigations division and officials from MMS determined that between 1994 and
1998, Shell had continually vented and flared gas from its Auger facility without authorization. As part of its
effort to cooperate with the federal probe of the Auger facility, Shell disclosed that in addition to Auger, the
company had committed similar reporting and royalty violations at numerous other Gulf of Mexico facilities
between 1975 and 1998.


Amerigas Inc. Settles on Unpaid Royalties to Federal Government

       A False Claims Act lawsuit filed by a third party outside the government alleged that Amerigas Inc.
underpaid federal mineral royalties by underreporting the volume and value of the carbon dioxide gas that
the company produced from federal land in the McElmo Dome Field in Colorado. In a settlement
agreement, the company agreed to pay the government $195,000 and to pay the case complainant
$90,000.

       An IG subpoena disclosed Amerigas Inc. records detailing the company’s actual federal lease sales
proceeds for carbon dioxide and methane gas, as well as pricing details and royalty payment information, to
determine the proper value for royalty payments made to MMS.




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 16
Significant Audit Activities and Investigations




MMS Oversight of Non-Federal Auditors Ensures Effective, Quality Audits

      MMS has cooperative agreements with state and tribal audit organizations to conduct audits of
royalties paid by companies that extract minerals from federal and Indian lands. We found that MMS
oversight of the non-federal auditors sufficiently ensures that they perform quality audits, satisfy the terms of
their cooperative agreements, and are in compliance with the Government Auditing Standards.

     However, MMS needs to correct several weaknesses. Cooperative agreements should be current, all
audit work should be covered by an internal quality review process, and the oversight procedure should
have a formal follow-up process to ensure that identified weaknesses are corrected.

     MMS generally agreed with our recommendations.                           Click Here For Full Report




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  17
                                                                      Significant Audit Activities and Investigations




             National Park Service

Government Seeks Extradition in $3.5 Million Fraud Case

         The Royal Canadian Mounted Police in Toronto, based on an extradition request by the United
States, arrested Gregory E. G. Thomlison of Ontario, Canada. Thomlison is currently awaiting an extradition
hearing. The extradition request was issued following Thomlison’s indictment by a federal grand jury in the
Southern District of California, charging him with 67 counts of wire fraud, money laundering, theft of
government property, and illegal transfer of bankruptcy assets.

         As we reported in our September 2002 Semiannual Report, the indictment alleges that Thomlison,
owner/president of Destinet Services Corporation, defrauded his former clients, the National Park Service,
and the California State Department of Parks and Recreation. According to the indictment, Destinet
Services contracted with clients to manage reservations and ticketing for campgrounds, sports venues, and
other entertainment ventures. Thomlison is accused of collecting reservation and ticketing fees from 1994 to
1997 and illegally transferring $3.5 million to bank accounts of shell companies in Canada, which he
controlled. Thomlison allegedly used the funds to support his lifestyle and his other personal business
interests.

        Following his indictment, a “no-bail” warrant was issued for Thomlison’s arrest. The U.S. Attorneys
Office requested Canadian authorities, through the Department of Justice, Office of International Affairs, to
process Thomlison for extradition to the United States.

        This continuing case is a joint effort of our audits and investigations staff.




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 18
Significant Audit Activities and Investigations




NPS Contractor Sentenced in Embezzlement Scheme

         Mitchell A. Nicholas, former contract computer specialist for NPS in Washington, D.C., was
sentenced to 12 months of imprisonment and three years of supervised release after pleading guilty to
charges that he stole NPS property and embezzled NPS money. He was ordered to pay $80,000 in
restitution. Additionally, Nicholas was terminated from his position with NPS.

       As we reported in our April 2003 Semiannual Report, for three years, while working for NPS,
Nicholas used the government-issued credit cards of three NPS employees to purchase nearly $48,000 in
unauthorized computer equipment from a personal friend at a local computer supply company. Nicholas
personally picked up the computer equipment but never delivered the property to NPS.

        Additionally, Nicholas created a fictitious computer supply business, set up an account with an
electronic credit card processing company to accept credit card purchases, and processed more than
$80,000 in NPS credit card purchases to that business for supplies and services that he did not provide.
Nicholas created and submitted bogus work orders and billing statements to the NPS in support of his
fraudulent scheme. Nicholas used the $128,280 he embezzled primarily to pay his personal debts.




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  19
                                                                    Significant Audit Activities and Investigations




            Office of Insular Affairs

Improvements Needed in the Administration of Grants by the Office of Insular Affairs

      We examined the process used by the Office of Insular Affairs (OIA) to award and monitor grants to
Insular Areas. OIA awards over $50 million in grants each year that provide Insular Areas with technical
and financial assistance to develop more dynamic economies and improve the quality of life for its citizens.
While OIA properly processed grants, we found that weaknesses in monitoring grants resulted in public
projects that were not completed on time, essential services that were delayed or not provided at all, and
federal monies that were wasted.

     We made eight recommendations for OIA to more effectively monitor grants, including:

        ¹    Implementing an automated, centralized grant-tracking system to compile and summarize
             essential information on active grants.
        ¹    Obtaining necessary documentation from grantees to verify that projects are progressing as
             expected.
        ¹     Determining the status of grants over five years old, which we determined have a
              cumulative balance of unspent funds totaling $33 million.

      OIA agreed with and implemented five of eight recommendations. Based on OIA’s response to the
draft report, we revised the other three recommendations and requested that OIA respond to the revised
recommendations.
                                                                                           Click Here For Full Report




                          Unfinished St. Croix detention center which was funded in
                          1984 with a $1.5 million grant from OIA.




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 20
Significant Audit Activities and Investigations




Weaknesses Hinder the Operation of the Guam Water and Wastewater Systems
                                                                                           Click Here For Full Report
      The Guam Waterworks Authority did not adequately maintain and
operate water and wastewater systems. We found deteriorating and
inoperable equipment, improperly secured facilities, $75 million in
pending capital improvement projects, and health and safety violations
resulting in the assessment of about $360 million in fines by the Guam
Environmental Protection Agency.

      We also noted that the Waterworks Authority incurred high
overtime costs ($8.6 million over a three-year period), did not collect
delinquent accounts totaling at least $12.6 million and promissory notes
totaling $448,480, failed to charge customers for the $554,000 cost of
waterline extensions, and failed to comply with established procurement
regulations.

     Based on the Waterworks Authority’s response to the draft report,
we consider 10 of the 13 recommendations resolved and implemented
and 3 recommendations unresolved.                                            Water gushing from an outdoor
                                                                             pump at the Barrigada Heights
                                                                             Station.

Noncompetitive Procurements Increase Cost of Saipan Harbor Project                           Click Here For Full Report

      We found that the Commonwealth Ports Authority in Saipan did not effectively manage a project to
improve the Saipan Harbor. Although the project was completed, the Ports Authority incurred $6.9 million in
cost overruns due to contract change orders, improperly used $980,000 in project funds, and entered into a
$3.3 million noncompetitive contract. The Office of Insular Affairs was aware that the noncompetitive contract
was awarded without a formal bid but did not intervene.

     We made two recommendations to the Commonwealth Ports Authority and two recommendations to
the Office of Insular Affairs to address these deficiencies. Based on responses to the draft report, we
consider the four recommendations unresolved.




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  21
                                                                  Significant Audit Activities and Investigations




Weaknesses in Virgin Islands Income Tax Collections Exist Despite Recent Improvements

      In a follow-up review of the Virgin Islands’ collection of income taxes, we found that weaknesses still
exist with prior-year tax returns. Specifically, the Virgin Islands Bureau of Internal Revenue still needs to
reverse $308,000 in dishonored checks, resolve errors in more than 3,000 returns, collect delinquent taxes
totaling $4.8 million, provide documentation for $164,000 in penalty waivers, and ensure that 90-day
statutory notices are promptly processed.

     We made four recommendations to the Governor to address these continuing problems. Because the
Governor and the Bureau of Internal Revenue did not respond to the four new recommendations, we
consider them unresolved.                                       Click Here For Full Report


Surcharges for Emergency Services Collected Properly but Change Could Increase Revenues

     The Virgin Islands telephone company Innovative Telephone
Corporation is required to collect a surcharge of $1 on all telephone bills to
fund fire, medical, and 911 emergency services. A member of the Virgin
Islands Legislature asked us to determine whether Innovative was properly
collecting and remitting the surcharge to the Virgin Islands Government. Our
review found that Innovative properly billed for and remitted to the
Government $1.8 million during the 30-month audit period, as required by
Virgin Island law (Act No. 6333).

      We noted, however, that had the law required that the surcharge be
based on the number of telephone telephone lines instead of telephone bills,
the surcharge would increase an average of $9,000 per month.

     The Governor of the Virgin Islands did not agree with our
recommendation to change the law to assess the surcharge on a more
equitable basis. We asked that the Governor provide another response.

                                                                       Click Here For Full Report




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 22
Significant Audit Activities and Investigations




                Office of Surface Mining Reclamation and Enforcement


Inventory of Abandoned Mine Lands Needs Improvement

     We found that the Abandoned Mine Land Inventory System (AMLIS), which is an automated
database containing information on completed, funded, and unfunded coal reclamation projects, contains
inaccurate data.

      The Surface Mining Control and Reclamation Act of 1977 requires the Secretary of the Interior to
maintain an inventory of high-priority degraded mine sites and to provide standard procedures for states and
Indian tribes to keep the inventory current. This led the Office of Surface Mining Reclamation and
Enforcement (OSM) to create AMLIS. This system is the primary source of information on the number of
sites and amount of funds used for reclamation work completed and for sites remaining to be reclaimed.
The inventory identifies $8.5 billion of remaining abandoned mine sites.

       The inaccurate data we found diminishes the usefulness of AMLIS for identifying the highest priority
sites for funding projects, forecasting future reclamation needs, and measuring performance under program
goals. Our testing of the accuracy of costs and measurement data in AMLIS disclosed that approximately
23 percent of the data listed for completed projects and 22 percent of the data listed for unreclaimed sites
was incorrect or not supported by adequate documentation. We also found the estimated costs listed for
unreclaimed sites are not periodically updated to reflect current conditions.

     OSM agreed to implement recommended improvements to the inventory.

                                                                             Click Here For Full Report




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  23
                                                                    Significant Audit Activities and Investigations




              U.S. Fish and Wildlife Service

Former FWS Employee Pleads Guilty to Fraud Charges

         Samuel Lovato, a former administrative officer with the U.S. Fish and Wildlife Service (FWS),
pleaded guilty in U.S. District Court for the District of New Mexico to charges that he submitted false
claims totaling more than $70,000 to the FWS. The plea resulted from an investigation that disclosed that
Lovato, who was employed as the administrative officer at the New Mexico Ecological Services Field
Office of the FWS in Albuquerque, New Mexico, submitted claims requesting payment for overtime hours
that he never worked.

         Specifically, we found that on 71 separate occasions between January 1998 and June 2001, Lovato
falsely claimed to have worked a total of 2,144 overtime hours. As a result of these claims, Lovato
received $54,316.

         Our investigation found that Lovato was responsible for preparing the time and attendance reports
for all employees at the New Mexico Ecological Services Field Office, including himself, and therefore was
able to add overtime hours to his own report. We also found that he obtained the computer password of
the supervisor who approved the reports and thus was able to approve his own falsified claims.

        The investigation also disclosed that Lovato submitted false reimbursement vouchers totaling
$15,893 to an FWS petty cash fund that he administered. These vouchers were supported by invoices that
he had fabricated, or by invoices that he had previously submitted for reimbursement. Sentencing is
pending.

        Shortly after the initiation of the investigation, FWS instituted procedures to prevent this type of
fraud from recurring. Specifically, procedures to better safeguard computer passwords and the payroll
system were established. In addition, many petty cash funds were eliminated or reduced and alternate
methods of payment for small purchases and miscellaneous expenses have been implemented.

FWS Edangered Species Cooperative Agreement Money Embezzled

       Kandi Tingle, an administrative clerk with Sam Houston Resource Conservation and Development
Area Inc., Texas, pled guilty to stealing federally provided monies in the amount of $39,913.

          The Sam Houston Resource Conservation and Development Area Inc. is a nonprofit organization
that is the recipient of funds through a cooperative agreement with FWS to fund the Attwater Prairie
Chicken National Wildlife Refuge, Eagle Lake, Texas. Additional funds come from another federal entity,
the Natural Resource Conservation Service. After several business checks written on the business account
were returned for insufficient funds, an audit and investigation disclosed that Tingle had embezzled monies
from the business account. Tingle was sentenced to five years supervised probation, full restitution in the
amount of $39,913, and a court assessment fee.

                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 24
Significant Audit Activities and Investigations




Biology Technician Embezzles Money Via Nonexistent Company

         Scott Rickettson, former FWS biology technician, Medicine Lake, Montana, was indicted by a
federal grand jury in the District of Montana on charges of wire fraud, theft of money by a federal employee,
theft of government property, forgery of a government obligation or contract, and false claims.

      According to the indictment, Rickettson made false statements on his application for federal
employment. After becoming a biology technician, Rickettson submitted fraudulent Wildlife Extension
Agreements, which caused the Fort Peck Tribes of Montana to receive two FWS grants totaling $36,500.

          Rickettson subsequently embezzled the $36,500 from the Fort Peck Tribes by submitting four
fraudulent invoices from Wildlife Veterinary Consulting, a fictitious company that he created. Rickettson’s
trial is scheduled for January 8, 2004.

Review of Program Identifies Questioned Costs

     Our review of the FWS Sport Fish and Wildlife Restoration Program grants in two states identified
questioned costs and other significant issues, as follows:

                 ¹        The State of Missouri used grant funds totaling $870,000 for ineligible activities,
                          including the control of nuisance animals, operation and maintenance of lands
                          that were not covered under the grant agreements, and indirect cost items that were
                          specifically unallowable under the regulations. The state also did not return $19,000
                          from the sale of real property and offset program costs of $105,000 with revenues
                          earned from housing rentals and the sale of timber.                          Click Here For Full Report

                 ¹        The District of Columbia could not provide sufficient evidence to demonstrate that
                          costs of$258,000 were incurred for grant-related activities. The District was also
                          unable to demonstrate that the rates used for indirect costs charges of $301,000
                          were computed in accordance with federal requirements.                     Click Here For Full Report

FWS Employee Convicted of Embezzling over $600,000 of Federal Funds

       Debra Strickland, FWS administrative officer, pleaded guilty in federal court to charges that she
embezzled more than $600,000 of federal funds from the Lower Mississippi River Conservation
Committee. The Committee is a cooperative, nonprofit organization of federal and state agencies formed to
promote wise use of the natural resources of the lower Mississippi River through planning, management,
information sharing, public education advocacy, and research. The majority of the funding for the
Committee was derived from a $733,000 grant from FWS.

     Strickland was allowed to open bank accounts for the Lower Mississippi River Conservation
Committee, for which she was the only signatory. Strickland was not accountable to anyone regarding
Committee funds. Furthermore, the investigation revealed that Strickland was previously suspended for

                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  25
                                                                 Significant Audit Activities and Investigations




violations regarding the use of her government credit card and was still allowed to continue her role as
treasurer of the Committee. The project coordinator never reviewed the bank statements or analyzed the
expenditures of the Committee. As a result, Strickland was able to continuously embezzle funds from 1998
to 2003 without being detected. A sentencing hearing for Strickland is scheduled for December 2003.

         In its Southeast Region, FWS has over $12 million in similar cooperative agreements that may be
exposed and at risk to similar fraudulent activity. Lack of management oversight and internal control
weaknesses contributed to the embezzlement of FWS funds. Accordingly, our office issued a management
advisory to assist the FWS in preventing and detecting future fraud of this nature and to enhance security
relative to federal funds.

FWS Takes Action to Improve Reporting on Endangered Species

      As one of several federal agencies involved in implementing the Endangered Species Act, FWS is
required to report to Congress its accomplishments, as well as those of other federal agencies and the
states, in protecting and recovering endangered species. We found that as of November 2001, FWS
reporting could have been more accurate, informative, and timely. Specifically, we found that:

               ¹       The 1999 report to Congress contained information on species recovery that was
                       not based on sufficient objective criteria.

               ¹       Information in the 1997 annual Federal and State Endangered Species Expenditure
                       Report was inconsistent and submitted more than a year and a half after its due
                       date.

               ¹       FWS set its performance goals too low and did not accurately measure or report
                       performance accomplishments or sufficiently verify data.

     We made four recommendations for improvements to FWS, which began to implement remedial
action even before completion of our audit.
                                                                                               Click Here For Full Report




                                    The endangered Desert Tortoise



                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                26
                                            Appendix 1

                Summary of Audit and Related Activities
             From April 1, 2003, Through September 30, 2003

                                               AUDITS PERFORMED BY:

                                                             OTHER           NON-
                                                            FEDERAL        FEDERAL
                                                           AUDITORS       AUDITORS
                                                          (With Review (With Review
                                                          and Processing and Processing
                                          OIG STAFF        by OIG Staff) by OIG Staff)
                                           Internal,
                                           Grant and
                                           Contract       Contract and
                                            Audits        Grant Audits      Single Audits   TOTAL


REPORTS ISSUED TO:



Department/Office of the Secretary              9                0                 2         11


Fish and Wildlife and Parks                     5                0                38         43


Indian Affairs                                  4                0               106        110

Insular Affairs                                 5                0                14         19


Land and Minerals Management                    5                0                 8         13

Water and Science                               2                0                23         25



     TOTAL Reports Issued                      30                0               191        221




                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  27
                                               Appendix 2

                         Reports Issued or Processed
           During the 6-month Period that Ended September 30, 2003
          This listing includes all internal audits, evaluations, and assessments, and contract and single audit
reports issued during the six-month period that ended September 30, 2003. It provides the report number,
title, issue date and monetary amounts identified in each report (*funds to be put to Better Use,**
Questioned Cost, *** Unsupported Cost, and **** Lost or Potential Additional Revenues).


INTERNAL REPORTS

Bureau of Indian Affairs

2003-I-0052     Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial Statements for
                Fiscal Years 2001 and 2002 (05/21/2003)
2003-I-0053     Management Issues Identified During the Audit of the Bureau of Indian Affairs’ Fiscal Year
                2002 Financial Statements (05/21/2003)
2003-I-0055     Evaluation of the Bureau of Indian Affairs’ Process to Approve Tribal Gaming Revenue
                Allocation Plans (06/11/2003)
2003-I-0070     Bureau of Indian Affairs School Construction Planning and Design Process(09/29/2003)
                *$75,920,000

Bureau of Land Management

2003-I-0064     Bureau of Land Management Coal Inspection and Enforcement Program (09/10/2003)
2003-I-0065     Implementation of the Southern Nevada Public Land Management Act (SNPLMA)
                (09/30/2003)

Bureau of Reclamation

2003-I-0054     Verification Report on Recommendations Considered Implemented in the Audit Entitled
                “Improvements Needed in Security Management of Information Technology Systems
                Supporting Energy and Water Operation, Bureau of Reclamation” (07/03/2003)

Guam

2003-I-0072     Guam Waterworks Authority, Government Of Guam (09/30/2003) *$8,940,000 &
                ****$13,614,570




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 28
Appendix 2 (continued)




Minerals Management Service

2003-I-0044     Management Issues Identified During the Audit of the Mineral Management Service’s Fiscal
                Year 2002 Financial Statements (04/21/2003)
2003-I-0061     Audit of Oversight Performed by the Minerals Management Service of Non-Federal Auditors
                (08/22/2003)

Multi-Office Audit

2003-I-0043     Payments to the District of Columbia Water and Sewer Authority Payments for January 1,
                2003, through March 31, 2003 (04/15/2003)
2003-I-0051     Evaluation Report on Moving to a Customer-Centered Web Presence (06/09/2003)
2003-I-0058     Payments to the District of Columbia Water and Sewer Authority Payments for April 1, 2003,
                through June 30, 2003 (08/13/2003)
2003-I-0060     Follow-up Evaluation Policies and Procedures Related to the Rural Development Act of 1972
                (08/20/2003)
2003-I-0066     Annual Evaluation of the Information Security Program and Practices Department of the
                Interior (09/22/2003)
2003-I-0068     Agreed-Upon Procedures Report for the Social Security Administration on “Retirement,
                Health Benefits, and Life Insurance Withholdings/Contributions And Supplemental
                Semiannual Headcount” (09/15/2003)
2003-I-0069     Agreed-Upon Procedures Report for the Department of the Interior on “Retirement, Health
                Benefits, and Life Insurance Withholdings/Contributions And Supplemental Semiannual
                Headcount” (09/15/2003)

Northern Mariana Islands

2003-I-0073     Saipan Harbor Improvement Project, Commonwealth Ports Authority, Commonwealth of the
                Northern Mariana Islands (09/30/2003) *$519,400 & **$460,600

Office of Insular Affairs

2003-I-0071     Audit Report Grants Administered by the Office of Insular Affairs (09/30/2003)

Office of Surface Mining Reclamation and Enforcement

2003-I-0074     Office of Surface Mining Reclamation and Enforcement Abandoned Mine Land Inventory
                System & Reporting of Abandoned Mine Land Program Performance Results (09/30/2003)

Office of the Secretary

2003-I-0046     Management Issues Identified During the Audit of the Departmental Offices’ Fiscal Year
                2002 Financial Statements (04/23/2003)

                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 29
                                                                                   Appendix 2 (continued)




2003-I-0056    Evaluation Report on the Department of the Interior Working Capital Fund (06/16/2003)



U.S. Fish and Wildlife Service

2003-I-0045    Reporting and Recovery Planning and Implementation for Endangered Species (04/08/2003)

U.S. Geological Survey

2003-I-0040    Independent Auditors’ Report Regarding Observations on U.S. Geological Survey’s Internal
               Control and Compliance with Laws and Regulations for Fiscal Year 2002 (04/11/2003)

U.S. Virgin Islands

2003-I-0059    Follow-up of Recommendation Relating to Internal Revenue Taxes, Bureau of Internal
               Revenue, Government of the Virgin Islands (08/29/2003) ****$5,516,000
2003-I-0067    Emergency Services Surcharge Collections by Innovative Telephone Corporation on Behalf
               of the Government of the Virgin Islands (09/26/2003) ****$256,380

CONTRACT AND GRANT AUDITS

National Park Service

2003-E-0057 Bay Ship and Yacht Company, Review and Determination of Unamortized Lease Capital
            Improvements, Under National Park Service Contract Number 1443CX8520-93-008
            (06/13/2003)
2003-E-0023 Audit of Preliminary Settlement Agreement for Partial Termination of National Park Service
            Contract No. CX 1200-00-0005 with Lewis Bros., Stages, for Shuttle Bus Service at Bryce
            Canyon National Park in Utah (09/23/2003)

U.S. Fish and Wildlife Service

2003-E-0021 Costs Claimed by the District of Columbia, Environmental Health Administration, Bureau of
            Environmental Quality, Fisheries and Wildlife Division, Under Federal Aid Grants from the
            U.S. Fish and Wildlife Service (04/08/2003) **$559,334
2003-E-0022 Costs Claimed by the State of Missouri, Department of Conservation, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1997 through June 30, 1999
            (06/11/2003) **$1,541,963 & ****$18,831




                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                30
Appendix 2 (continued)




SINGLE AUDITS

Bureau of Indian Affairs

2003-A-0232 Pit River Tribe, Fiscal Year Ended December 31, 2001 (04/09/2003)
2003-A-0233 Cherokee Nation, Fiscal Year Ended September 30, 2001 (04/09/2003)
2003-A-0235 Council of Athabascan Tribal Governments, Fiscal Year Ended September 30, 2001
            (04/11/2003)
2003-A-0236 Mni Sose Intertribal Water Rights Coalition, Incorporated, Fiscal Year Ended December 31,
            2000 (04/11/2003)
2003-A-0237 Big Sandy Rancheria, Fiscal Year Ended December 31, 2001 (04/09/2003)
2003-A-0238 Chickaloon Village Traditional Council, Fiscal Year Ended September 30, 2001 (04/11/2003)
2003-A-0239 Standing Rock — Rock Creek School, Fiscal Year Ended June 30, 2000 (04/09/2003)
            **$10,703
2003-A-0240 The Shoshone-Bannock Tribes, Fiscal Year Ended September 30, 2001 (04/11/2003)
2003-A-0241 Colorado River Indian Tribes, Fiscal Years Ended December 31, 2001 (04/09/2003)
2003-A-0242 Pueblo of Jemez, Fiscal Year Ended September 30, 2000 (04/11/2003)
2003-A-0243 Nome Eskimo Community, Fiscal Year Ended December 31, 2000 (04/09/2003)
2003-A-0244 Fallon Paiute-Shoshone Tribe, Fiscal Year Ended December 31, 2001 (04/09/2003)
2003-A-0245 Cloverdale Rancheria, Fiscal Year Ended December 31, 2001 (04/11/2003)
2003-A-0246 Central Council of the Tlingit and Haida Indian Tribes of Alaska, Fiscal Year Ended
            December 31, 2001 (04/11/2003)
2003-A-0247 Salt River Pima-Maricopa Indian Community, Fiscal Year Ended September 30, 2001
            (04/11/2003)
2003-A-0248 Twenty-Nine Palms Band of Mission Indians, Fiscal Year Ended December 31, 2000
            (04/11/2003)
2003-A-0249 Twenty-Nine Palms Band of Mission Indians, Fiscal Year Ended December 31, 2001
            (04/11/2003)
2003-A-0250 Blackfeet Tribe of the Blackfeet Indian Reservation, Fiscal Year Ended September 30, 2001
            (04/11/2003) **$9,539
2003-A-0251 Cocopah Indian Tribe, Fiscal Year Ended December 31, 2001 (04/11/2003)
2003-A-0252 Ramona Band of Cahuilla Mission Indians, Fiscal Year Ended December 31, 2001
            (04/16/2003) **$54,281
2003-A-0253 Quileute Tribal School, Fiscal Year Ended June 30, 2001 (04/15/2003)
2003-A-0254 Big Valley Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 2001
            (04/15/2003)
2003-A-0255 Winnebago Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (04/15/2003)
2003-A-0256 Standing Rock Community Grant School, Fiscal Year Ended June 30, 2001 (04/16/2003)
2003-A-0257 Bay Mills Indian Community, Fiscal Year Ended December 31, 2001 (04/16/2003)
2003-A-0258 Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 1998 (04/21/2003)
2003-A-0259 Native Village of Mekoryuk IRA Council, Fiscal Year Ended December 31, 2000
            (04/22/2003) **$201,723
2003-A-0260 Stevens Village Council, Fiscal Year Ended September 30, 1997 (04/22/2003)
2003-A-0261 Quechan Indian Tribe, Fiscal Year Ended December 31, 2000 (04/25/2003) **$24,112
2003-A-0262 Ottawa Tribe of Oklahoma, Fiscal Year Ended September 30, 2001 (04/25/2003)

                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 31
                                                                                 Appendix 2 (continued)




2003-A-0264   Stewarts Point Rancheria, Fiscal Year Ended December 31, 2001 (04/25/2003)
2003-A-0265   Yerington Paiute Tribe, Fiscal Year Ended December 31, 2001 (04/23/2003)
2003-A-0266   Rocky Mountain College, Fiscal Year Ended June 30, 2002 (04/23/2003)
2003-A-0267   Hydaburg Cooperative Association, Fiscal Year Ended December 31, 2001 (04/25/2003)
2003-A-0270   Noorvik IRA Council, Fiscal Year Ended December 31, 1999 (04/25/2003)
2003-A-0272   Circle of Nations, Incorporated, Fiscal Year Ended June 30, 2001 (04/25/2003)
2003-A-0281   Hopi Junior/Senior High School, Fiscal Year Ended June 30, 2002 (05/09/2003)
2003-A-0302   Hotevilla Bacavi Community School, Fiscal Year Ended June 30, 2002 (05/15/2003)
2003-A-0304   Knik Tribal Council, Fiscal Year Ended June 30, 2001 (05/28/2003)
2003-A-0305   Spirit Lake Tribe, Fiscal Year Ended September 30, 2002 (05/28/2003)
2003-A-0307   Metlakatla Indian Community, Fiscal Year Ended September 30, 2002 (5/30/2003)
2003-A-0308   Kipnuk Traditional Council, Fiscal Year Ended December 31, 2001 (05/29/2003) **$111,129
2003-A-0310   Native Village of St. Michael, Fiscal Year Ended December 31, 2000 (06/04/2003)
2003-A-0311   Lac Courte Oreilles Band of Lake Superior Chippewa Indians of Wisconsin, Fiscal Year
              Ended September 30, 2001 (06/04/2003)
2003-A-0313   Chilchinbeto Community School, Fiscal Year Ended June 30, 2002 (06/04/2003)
2003-A-0318   Wingate Board of Education, Incorporated, Fiscal Year Ended June 30, 2000 (06/16/2003)
2003-A-0320   Red Lake Band of Chippewa Indians, Fifteen-Month Period Ended December 31, 2001
              (06/20/2003) **$2,429
2003-A-0322   Tonto-Apache Tribe, Fiscal Year Ended December 31, 1998 (06/20/2003) **$31,179
2003-A-0324   Pueblo of Laguna Department of Education, Fiscal Year Ended June 30, 2002 (06/19/2003)
2003-A-0327   Fort Independence Indian Community of Paiute Indians, Fiscal Year Ended December 31,
              2000 (06/23/2003)
2003-A-0328   Lummi Indian Business Council, Fiscal Year Ended December 31, 2001 (06/23/2003)
2003-A-0331   Northern Cheyenne Tribe, Fiscal Year Ended September 30, 2001 (07/30/2003)
2003-A-0332   Cheyenne & Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 2001
              (07/03/2003)
2003-A-0334   Beaver Village Council, Fiscal Year Ended September 30, 2000 (07/03/2003)
2003-A-0340   Rough Rock School Board, Incorporated, Fiscal Year Ended June 30, 2000 (07/03/2003)
2003-A-0341   Fort Independence Indian Community of Paiute Indians, Fiscal Year Ended December 31,
              2001 (07/03/2003)
2003-A-0342   Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 2001 (07/03/2003)
2003-A-0343   Kickapoo Tribe in Kansas, Fiscal Year Ended December 31, 2001 (07/03/2003)
2003-A-0344   Traditional Council of Togiak, Fiscal Year Ended September 30, 2001 (07/03/2003)
2003-A-0345   Smith River Rancheria, Fiscal Year Ended December 31, 2001 (07/03/2003)
2003-A-0346   Swinomish Indian Tribal Community, Fiscal Year Ended December 31, 2001 (07/03/2003)
2003-A-0347   Augustine Band of Cahuilla Mission Indians, Fiscal Year Ended December 31, 2001
              (07/03/2003)
2003-A-0348   Standing Rock — Rock Creek School, Fiscal Year Ended June 30, 2001 (07/03/2003)
              **$82,262
2003-A-0349   Cold Springs Rancheria, Fiscal Year Ended December 31, 2001 (07/11/2003)
2003-A-0350   Columbia River Inter-Tribal Fish Commission, Fiscal Year Ended December 31, 2001
              (07/11/2003) **$211,750
2003-A-0351   Takini School, Fiscal Year Ended June 30, 2001 (07/11/2003)



              Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                              32
Appendix 2 (continued)




2003-A-0353 Confederated Salish and Kootenai Tribes of the Flathead Nation, Fiscal Year Ended
            September 30, 2002 (07/11/2003)
2003-A-0354 Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 2001 (07/11/2003)
2003-A-0355 Bering Sea Fishermen’s Association, Fiscal Year Ended June 30, 2002 (07/15/2003)
2003-A-0356 Hoh Indian Tribe, Fiscal Year Ended September 30, 1998 (06/15/2003) **$368,814
2003-A-0359 Chitina Traditional Indian Village Council, Fiscal Year Ended September 30, 2001
            (07/25/2003)
2003-A-0360 Alamo Navajo School Board, Incorporated, Fiscal Year Ended June 30, 2002 (07/25/2003)
2003-A-0361 Table Bluff Reservation - Wiyot Tribe, Fiscal Year Ended December 31, 2001 (07/25/2003)
2003-A-0362 Penobscot Indian Nation, Fiscal Year Ended September 30, 2002 (07/25/2003)
2003-A-0363 The Visions of Suanne Big Crow, Incorporated, Fiscal Year Ended December 31, 2001
            (07/25/2003)
2003-A-0365 Native Village of Mekoryuk, Fiscal Year Ended December 31, 2001 (07/25/2003)
2003-A-0366 Pueblo of De Cochiti, Fiscal Year Ended December 31, 2002 (07/25/2003)
2003-A-0367 Tohono O’odham Ki:Ki Association, Fiscal Year Ended June 30, 1998 (08/22/2003)
2003-A-0368 Wounded Knee District School, Fiscal Year Ended June 30, 1999 (08/22/2003) **$205,113
2003-A-0370 Indian Township Tribal Government, Fiscal Year Ended September 30, 2001 (08/08/2003)
2003-A-0372 Council of Athabascan Tribal Governments, Fiscal Year Ended September 30, 2002
            (08/08/2003)
2003-A-0378 Cortina Indian Rancheria, Fiscal Year Ended December 31, 2000 (08/14/2003)
2003-A-0379 Osage Tribal Council, Fiscal Year Ended June 30, 2002 (08/14/2003)
2003-A-0381 Otoe-Missouria Tribe of Indians, Fiscal Year Ended December 31, 1999 (07/22/2003)
2003-A-0382 Navajo Area School Board Association, Fiscal Year Ended September 30, 1999 (08/22/2003)
2003-A-0384 Standing Rock Sioux Tribe, Fiscal Year Ended September 30, 1997 (08/22/2003)
2003-A-0385 Rocky Mountain Technology Foundation, Incorporated, Fiscal Year Ended June 30, 2002
            (08/21/2003)
2003-A-0386 Cold Springs Rancheria, Fiscal Year Ended December 31, 2000 (08/22/2003)
2003-A-0390 Hopi Tribe, Fiscal Year Ended December 31, 2000 (08/22/2003)
2003-A-0391 Hannahville Indian Community, Fiscal Year Ended September 30, 2002 (08/22/2003)
2003-A-0392 Chickasaw Nation, Fiscal Year Ended September 30, 2002 (08/22/2003) **$81,934
2003-A-0393 Marty Indian School, Fiscal Year Ended June 30, 2002 (08/22/2003)
2003-A-0394 Chitina Traditional Indian Village Council, Fiscal Year Ended September 30, 2002
            (08/22/2003)
2003-A-0395 Circle of Nations School, Incorporated, Fiscal Year Ended June 30, 2002 (08/22/2003)
2003-A-0396 Spirit Lake Tribe, Fiscal Year Ended September 30, 2001 (08/22/2003)
2003-A-0398 Sac and Fox Nation of Missouri, Fiscal Year Ended September 30, 2002 (08/22/2003)
2003-A-0400 Wampanoag Tribe of Gay Head (Aquinnah), Fiscal Year Ended September 30, 2002
            (08/22/2003)
2003-A-0402 Organized Village of Akiachak, Akiachak IRA Council, Fiscal Year Ended December 31,
            2001 (08/27/2003)
2003-A-0403 Walker River Paiute Tribe, Fiscal Year Ended December 31, 2000 (08/27/2003)
2003-A-0408 Pueblo of Isleta, Fiscal Year Ended December 31, 2000 (08/29/2003)
2003-A-0414 Wa He Lut Indian School, Fiscal Year Ended June 30, 2002 (09/11/2003)
2003-A-0415 San Juan Pueblo Board of Education, Fiscal Year Ended June 30, 2002 (09/17/2003)



                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 33
                                                                                     Appendix 2 (continued)




2003-A-0416 Nazlini Community School, Incorporated and Nazlini Community Junior High School, Fiscal
            Year Ended June 30, 2001 (09/17/2003)
2003-A-0417 Gila Crossing Community School, Fiscal Year Ended June 30, 2002 (09/17/2003)
2003-A-0418 Coeur d’Alene Tribe, Fiscal Year Ended September 30, 2002 (09/17/2003)
2003-A-0420 Takini School, Fiscal Year Ended June 30, 2002 (09/25/2003) **$262,694

Bureau of Land Management

2003-A-0274 Lane County, Oregon, Fiscal Year Ended June 30, 2001 (04/30/2003)
2003-A-0291 University of Wyoming, Fiscal Year Ended June 30, 2002 (05/08/2003)
2003-A-0373 Alaska Village Initiatives, Subsidiaries and Affiliates, Fiscal Year Ended September 30, 2002
            (08/08/2003)
2003-A-0375 Clayton County, Iowa, Fiscal Year Ended June 30, 2002 (08/07/2003)

Bureau of Reclamation

2003-A-0275 County of San Bernardino Museum, Fiscal Year Ended March 1, 2001 (04/30/2003)
2003-A-0276 County of San Bernardino, California, Fiscal Year Ended June 30, 2001 (04/30/2003)
2003-A-0306 West River/Lyman-Jones Rural Water Systems, Incorporated, Fiscal Year Ended
            December 31, 2002 (05/28/2003)
2003-A-0323 Central Utah Water Conservancy District, Fiscal Year Ended June 30, 2000 (06/19/2003)
2003-A-0330 Mesa County Land Conservancy, Incorporated, Fiscal Year Ended April 30, 2002
            (06/23/2003)
2003-A-0333 San Xavier District, Arizona, Fiscal Year Ended September 30, 2001 (07/03/2003) **$17,462
2003-A-0339 Lewis and Clark Rural Water System, Incorporated, Nine-Month Period Ended September
            30, 2002 (07/03/2003)
2003-A-0407 County of San Bernardino, California, Fiscal Year Ended June 30, 2002 (08/27/2003)

Chuuk
2003-A-0405 Chuuk State Government, Federated States of Micronesia, Fiscal Year Ended September 30,
            2001 (08/27/2003) **$349,497

Federated States of Micronesia
2003-A-0388 National Government, Federated States of Micronesia, Fiscal Year Ended September 30,
            2001 (08/22/2003) **$434,857




                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                34
Appendix 2 (continued)




Guam

2003-A-0309 Guam Memorial Hospital Authority, Fiscal Year Ended September 30, 2001 (06/06/2003)
            **$1,224,089
2003-A-0321 Government of Guam, Fiscal Year Ended September 30, 2001 (06/20/2003) **$4,601,990

Kosrae

2003-A-0383 State of Kosrae, Federated States of Micronesia, Fiscal Year Ended September 30, 2001
            (08/22/2003)

Minerals Management Service

2003-A-0296 Colorado, Fiscal Year Ended June 30, 2002 (05/16/2003)

Northern Mariana Islands

2003-A-0317 Commonwealth Ports Authority, Fiscal Year Ended September 30, 2002 (06/13/2003)
2003-A-0335 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 2001
            (07/03/2003)
2003-A-0338 Northern Marianas College, Fiscal Year Ended September 30, 1997 (07/11/2003)
2003-A-0387 Karidat, Fiscal Year Ended September 30, 2002 (08/22/2003)

National Park Service

2003-A-0271     Sonoran Institute, Fiscal Year Ended June 30, 2001 (04/25/2003)
2003-A-0286     University of Denver (Colorado Seminary), Fiscal Year Ended June 30, 2002 (05/09/2003)
2003-A-0319     Vermont Historical Society and Subsidiary, Fiscal Year Ended June 30, 2002 (06/20/2003)
2003-A-0352     National Academy of Public Administration Foundation and Affiliate, Fiscal Year Ended
                September 30, 2002 (07/11/2003)
2003-A-0364     St. Croix Economic Alliance, Fiscal Year Ended June 30, 2002 (07/25/2003)
2003-A-0404     Springfield Library and Museums Association, Fiscal Year Ended June 30, 2002 (08/27/2003)
2003-A-0409     Wheeling National Heritage Area Corporation, Fiscal Year Ended June 30, 2002
                (08/29/2003)
2003-A-0410     Woodbury County, Iowa, Fiscal Year Ended June 30, 2002 (08/29/2003)
2003-A-0413     Quinebaug-Shetucket Heritage Corridor, Incorporated, Fiscal Year Ended December 31, 2002
                (09/08/2003)
2003-A-0421     City of South Sioux City, Nebraska, Fiscal Year Ended September 30, 2002 (09/25/2003)

Office of Surface Mining
2003-A-0288 Wyoming, Fiscal Year Ended June 30, 2002 (05/09/2003) **$27,445
2003-A-0289 West Virginia, Fiscal Year Ended June 30, 2002 (05/09/2003)


                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 35
                                                                                   Appendix 2 (continued)




2003-A-0314 New Mexico Energy, Minerals, and Natural Resources Department, Fiscal Year Ended June
            30, 2002 (06/04/2003)

Office of the Secretary

2003-A-0299 University of Michigan, Fiscal Year Ended June 30, 2002 (05/23/2003)
2003-A-0411 University of California, Fiscal Year Ended June 30, 2002 (08/25/2003)

Palau

2003-A-0234 Palau Community College, Fiscal Year Ended September 30, 1999 (04/09/2003) **$52,564
2003-A-0401 Republic of Palau National Government, Fiscal Year Ended September 30, 2002
            (08/22/2003)

Pohnpei

2003-A-0389 State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended September 30, 2001
            (08/22/2003) **$74,332

U.S. Fish and Wildlife Service
2003-A-0231 Humboldt State University Foundation, Fiscal Year Ended June 30, 2002 (04/09/2003)
2003-A-0263 South Dakota Association of Conservation Districts, Incorporated, Fiscal Year Ended June 30,
            2001 (04/25/2003)
2003-A-0269 Mercer County, Illinois, Fiscal Year Ended November 30, 2001 (04/25/2003)
2003-A-0273 Ducks Unlimited, Incorporated, Fiscal Year Ended February 28, 2001 (04/29/2003)
2003-A-0277 Florida, Fiscal Year Ended June 30, 2002 (05/01/2003) **$10,200
2003-A-0278 Oregon, Fiscal Year Ended June 30, 2002 (04/30/2003)
2003-A-0280 New Hampshire, Fiscal Year Ended June 30, 2002 (05/09/2003)
2003-A-0283 Nature Conservancy, Fiscal Year Ended June 30, 2001 (05/08/2003)
2003-A-0284 Connecticut, Fiscal Year Ended June 30, 2002 (05/08/2003)
2003-A-0285 Mississippi, Fiscal Year Ended June 30, 2002 (05/07/2003)
2003-A-0287 Washington, Fiscal Year Ended June 30, 2002 (05/09/2003)
2003-A-0290 North Carolina, Fiscal Year Ended June 30, 2002 (05/08/2003)
2003-A-0292 North Dakota, Fiscal Year Ended June 30, 2002 (05/08/2003)
2003-A-0293 Louisiana, Fiscal Year Ended June 30, 2002 (05/16/2003)
2003-A-0294 Minnesota, Fiscal Year Ended June 30, 2002 (05/15/2003)
2003-A-0298 Commonwealth of Virginia, Fiscal Year Ended June 30, 2002 (05/15/2003)
2003-A-0300 Delaware, Fiscal Year Ended June 30, 2002 (05/15/2003)
2003-A-0301 Wisconsin, Fiscal Year Ended June 30, 2002 (05/15/2003)
2003-A-0312 New Mexico Department of Game and Fish, Fiscal Year Ended June 30, 2002 (06/04/2003)
2003-A-0315 Nature Conservancy, Fiscal Year Ended June 30, 2002 (06/04/2003)
2003-A-0316 Maryland, Fiscal Year Ended June 30, 2002 (06/06/2003)
2003-A-0325 Idaho, Fiscal Year Ended June 30, 2002 (06/19/2003)


                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                36
Appendix 2 (continued)




2003-A-0329 South Carolina, Fiscal Year Ended June 30, 2002 (06/30/2003)
2003-A-0336 Texas, Fiscal Year Ended August 31, 2002 (07/11/2003)
2003-A-0337 Modoc Joint Unified School District, California, Fiscal Year Ended June 30, 2002
            (07/11/2003)
2003-A-0357 American Sportfishing Association and Affiliates, Fiscal Year Ended September 30, 2002
            (07/25/2003)
2003-A-0358 University of Massachusetts, Fiscal Year Ended June 30, 2002 (07/25/2003)
2003-A-0369 Cornell University, Fiscal Year Ended June 30, 2002 (08/08/2003)

U.S. Geological Survey

2003-A-0268     Ohio State University, Fiscal Year Ended June 30, 2002 (04/23/2003)
2003-A-0279     Northwestern University, Fiscal Year Ended August 31, 2002 (04/30/2003)
2003-A-0282     Massachusetts Institute of Technology, Fiscal Year Ended June 30, 2002 (05/09/2003)
2003-A-0295     Miami University, Fiscal Year Ended June 30, 2002 (05/15/2003)
2003-A-0303     University of Missouri System, Fiscal Year Ended June 30, 2002 (05/28/2003)
2003-A-0326     New Mexico Highlands University, Fiscal Year Ended June 30, 2002 (06/19/2003)
2003-A-0371     National Academy of Sciences, Fiscal Year Ended December 31, 2002 (08/08/2003)
2003-A-0374     Smithsonian Institution, Fiscal Year Ended September 30, 2002 (08/08/2003)
2003-A-0376     Alfred University, Fiscal Year Ended June 30, 2002 (08/08/2003)
2003-A-0377     University of Southern California, Fiscal Year Ended June 30, 2002 (08/08/2003)
2003-A-0380     Brown University, Fiscal Year Ended June 30, 2002 (08/08/2003)
2003-A-0397     Wayne State University, Fiscal Year Ended September 30, 2002 (08/22/2003)
2003-A-0399     California State University, Fiscal Year Ended June 30, 2002 (08/22/2003)
2003-A-0412     Howard University, Fiscal Year Ended June 30, 2002 (08/27/2003)
2003-A-0419     University of Maine System, Fiscal Year Ended June 30, 2002 (09/17/2003)

U.S. Virgin Islands

2003-A-0297 Virgin Islands Port Authority (05/15/2003)

Yap

2003-A-0406 State of Yap, Federated States of Micronesia, Fiscal Year Ended September 30, 2001
            (08/27/2003)




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 37
                                                 Appendix 3
                  Monetary Impact of Audit Activities From
                  April 1, 2003, Through September 30, 2003


                                                            FUNDS TO BE
                                      QUESTIONED              PUT TO
          ACTIVITY                      COSTS               BETTER USE         REVENUES       TOTAL

Bureau of Indian Affairs                  $1,657,662          $75,920,000               0     $77,577,662

Bureau of Reclamation                        $17,462                      0             0        $17,462

Office of Insular Affairs: *

  Chuuk                                      349,497                      0             0        349,497
  Federated States of
                                             434,857                      0             0        434,857
  Micronesia
  Guam                                     5,826,079             8,940,000      13,614,570     28,380,649

  Northern Mariana Islands                   460,600                 519,400            0        980,000

  Palau                                        52,564                     0             0         52,564

  Pohnpei                                      74,332                     0             0         74,332

  U.S. Virgin Islands                                0                    0      5,772,390      5,772,390
Office of Surface Mining
                                               27,445                     0             0         27,445
Reclamation and Enforcement
U.S. Fish and Wildlife Service             2,111,497                      0        18,831       2,130,328

        TOTAL                           $11,011,995           $85,379,400      $19,405,791   $115,797,186


 ________________
 * Includes monetary impact of non-federal funds (see Appendix 4).




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 38
                                        Appendix 4



                           Nonfederal Funding Included in
                         Monetary Impact of Audit Activities
                       During the Six-Month Period That Ended
                                 September 30, 2003


No. 2003-I-0059     “Follow-up of Recommendation Relating to Internal Revenue Taxes, Bureau
                    of Internal Revenue, Government of the Virgin Islands,” dated August 29,
                    2003. All of the $5,516,000 reported as monetary impact represents Insular
                    Area funds.

No. 2003-I-0067     “Emergency Service Surcharge Collections by Innovative Telephone
                    Corporation on Behalf of the Government of the Virgin Islands,” dated
                    September 26, 2003. All of the $256,380 reported as monetary impact
                    represents Insular Area funds.

No. 2003-I-0072     “Guam Waterworks Authority, Government of Guam,” dated September 30,
                    2003. All of the $22,554,570 reported as monetary impact represents Insular
                    Area funds.




              Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                              39
                                                 Appendix 5

                                      Audit Resolution Activities
                                               Table I


             Inspector General Audit Reports with Questioned Costs*


                                                                 Number of        Questioned       Unsupported
                                                                  Reports           Costs             Costs

A. For which no management decision had been
   made by the commencement of the reporting                          79         $26,151,1141           1,709,652
   period.
B.      Which were issued during the reporting
                                                                      26            11,011,995
        period.
                 Total (A+B)                                         105            37,163,109          1,709,652


C. For which a management decision was made
                                                                      24             4,808,963                      0
   during the reporting period.
           (i)   Dollar value of recommendations that
                                                                      20             4,791,963                      0
                 were agreed to by management.
           (ii) Dollar value of recommendations that
                                                                        4                17,000                     0
                were not agreed to by management.


D. For which no management decision had been
                                                                      81            32,354,146          1,709,652
   made by the end of the reporting period.


E.      For which no management decision was made
                                                                      74            22,692,206            596,095
        within six months of issuance.




* Unsupported costs are included in questioned costs.
1
    Amount increased by $31,267 of unsupported costs, which should have been in the April 2003 Semiannual Report.


                   Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                   40
                                                Appendix 5
                                    Audit Resolution Activities
                                            Table II

                     Inspector General Audit Reports With
                Recommendations That Funds Be Put to Better Use


                                                                           Number of
                                                                                            Dollar Value
                                                                            Reports
A. For which no management decision had been made by
                                                                                 13              25,020,706
   the commencement of the reporting period.1

B.     Which were issued during the reporting period.2                            2              76,439,400

                Total (A+B)                                                      15             101,460,106




C. For which a management decision was made during the
                                                                                  0                         0
   reporting period.
          (i)   Dollar value of recommendations that were
                                                                                  0                         0
                agreed to by management.
          (ii) Dollar value of recommendations that were not
                                                                                  0                         0
               agreed to by management.


D. For which no management decision had been made by
                                                                                 15             101,460,106
   the end of the reporting period.


E.     For which no management decision was made within six
                                                                                 12              24,552,941
       months of issuance.

1
    Amount decreased by $6,800,000 for adjustment to amount reported in the April 2003 Semiannual Report.

2
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($8,940,000).
This amount is not subject to a Department of the Interior management decision.


                  Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                  41
                                               Appendix 5

                                  Audit Resolution Activities
                                          Table III

                         Inspector General Audit Reports with
                         Lost or Potential Additional Revenues


                                                                         Number of
                                                                          Reports         Dollar Value
     A.    For which no management decision had been
           made by the commencement of the reporting                        12              138,103,167
           period.
     B.    Which were issued during the reporting period.1                  1                  18,831
           Total (A+B)                                                      13              138,121,998


     C.    For which a management decision was made
                                                                            3                 722,012
           during the reporting period.
              (i)   Dollar value of recommendations that were
                                                                            3                 722,012
                    agreed to by management.
              (ii) Dollar value of recommendations that were
                                                                            0                     0
                   not agreed to by management.


     D.    For which no management decision had been
                                                                            10              137,399,986
           made by the end of the reporting period.


     E. For which no management decision was made
                                                                            10              137,399,986
        within six months of issuance.
________________
1
 Amount does not agree with Appendix 3 "Monetary Impact of Audit Activities" because we did not include the
monetary amount of Insular Area government recommendations that related to local government funds ($19,386,950).
This amount is not subject to a Department of the Interior management decision.




                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                42
                                               Appendix 6
                   Summary of Audit Reports Over Six Months Old
                          Pending Management Decisions
                     April 1, 2003 Through September 30, 2003
     This listing presents internal, contract (except pre-awards), grant, and single audit reports that were
over six months old on September 30, 2003, and still pending a management decision. It provides the
report number, title, issue date, number of unresolved recommendations, and unresolved amount of
monetary benefits identified in the audit report.


INTERNAL AUDITS

Marshall Islands

1999-I-0952     Marshall Islands Development Bank, Republic of the Marshall Islands (09/30/1999) 4
                Recommendations $382,888 Unresolved

Multi-Office Audit

2001-I-0297     Audit Report on the Stripper Oil Well Property Royalty Rate Reduction Program
                (03/30/2001) 2 Recommendations Unresolved

National Park Service

2003-I-0013     Yosemite National Park’s Museum Collection, National Park Service (03/31/2003)
                1 Recommendation Unresolved

CONTRACT AND GRANT AUDITS

Bureau of Indian Affairs

1994-E-0784 Audit of Costs Claimed by Diversified Business Technologies Corporation, Albuquerque,
            New Mexico (06/10/1994) 1 Recommendation $825,170 Unresolved (Circumstances
            beyond the Bureau’s control have delayed resolution of the costs.)
1994-E-0919 Audit of Costs Claimed by Diversified Technologies Corporation, Albuquerque, New Mexico
            (06/30/1994) 1 Recommendation $247,414 Unresolved (Circumstances beyond the
            Bureau’s control have delayed resolution of the costs.)

Bureau of Reclamation

2000-E-0688 Interstate Electrical Contractor, Claims for Equitable Adjustment Submitted to BOR Under
            Contract No. 1425-5-CC-40-17910 (09/18/2000) 1 Recommendation $982,917 Unresolved



                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 43
                                                                                 Appendix 6 (continued)




2001-E-0184 Mingus Constructors, Inc., Claim for Equitable Adjustment Submitted to BOR Under
            Contract No. 1425-5-CC-40-17910 (02/14/2001) 1 Recommendation           $725,790
            Unresolved
2001-E-0229 Costs Claimed by Sloat and Associates, Inc., Under BOR Contract No. 1425-5-CC-40-18140
            (02/14/2001) 1 Recommendation $157,964 Unresolved
2002-E-0008 Tooele City, Utah, Costs Billed under Bureau of Reclamation Cooperative Agreement No.
            96FC400870 (09/20/2002) 1 Recommendation $461,981 Unresolved

Minerals Management Service

2001-E-0355 Audit of Costs Billed by the Ute Indian Tribe (05/04/2001) 1 Recommendation
            $132,217 Unresolved

National Park Service

2000-E-0289 J.C.M. Control Systems, Inc., Costs Billed During Fiscal Years 1997, 1998, & 1999 Under
            NPS Contract No. 1443CX300094906 (03/24/2000) 1 Recommendation $83,125
            Unresolved
2000-E-0607 Harrison and Palmer, Inc., Costs Billed Under National Park Service Contract No.
            1443CX00094906 (08/08/2000) 1 Recommendation $52,703 Unresolved
2000-E-0706 Southern Insulation, Inc. (09/29/2000) 1 Recommendation $86,262 Unresolved
2001-E-0035 Callas Contractors, Inc. (11/07/2000) 1 Recommendation $16,425 Unresolved
2001-E-0036 Final Costs Audit of Capitol Mechanical Construction (11/07/2000)
            1 Recommendation $98,194 Unresolved
2001-E-0244 Audit of Costs Billed by EMS Consultants From May 1, 1996 through June 1, 1999
            (02/27/2001) 1 Recommendation $327,330 Unresolved
2001-E-0336 Final Costs Audit of Capitol Mechanical Construction (11/07/2000) 1 Recommendation
            $98,194 Unresolved
2002-E-0002 Community Central Energy Corporation, Amounts Billed under National Park Service
            Contract No. CX-4000-0-0023 from October 1, 1993 through September 30, 2000
             (12/19/2001) 1 Recommendation $779,274 Unresolved

Office of the Secretary

2002-E-0001 Los Alamos Technical Associates, Incorporated, Termination Settlement Proposal under
            Office of the Special Trustee Contract No. NBCA0C00009 (01/17/2002)
            1 Recommendation $30,031 Unresolved

Office of the Special Trustee for American Indians

2002-E-0003 Ktech Corporation, Termination Settlement Proposal under Office of the Special Trustee
            Contract No. NBCA0C00009 (01/17/2002) 1 Recommendation               $28,381 Unresolved




                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                44
Appendix 6 (continued)




2003-E-0005 Audit of Final Contract Costs for Chavarria, Dunne, & Lamey LLC Under Office of the
            Special Trustee Contract No. CMK00133396 (11/12/2002) 1 Recommendation
            $108,405 Unresolved

U.S. Fish and Wildlife

2003-E-0009 Costs Claimed by the State of Maine Department of Inland Fisheries and Wildlife
            under Federal Aid Grants from the U. S. Fish and Wildlife Service from July 1, 1996
            through June 30, 1998 (01/14/2003) 4 Recommendations $151,244 Unresolved
2003-E-0013 Costs Claimed by the Commonwealth of Northern Mariana Islands, Department of Lands
            and Natural Resources, under Federal Aid Grants from the U.S. Fish and Wildlife Service
            from 10/1/96 Through 9/30/98 (01/22/2003) 7 Recommendations             $942,927 Unresolved
2003-E-0014 Costs Claimed by the State of Arizona, Department of Game and Fish, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1998 Through June 30, 2000
            (01/23/2003) 2 Recommendations Unresolved
2003-E-0015 Costs Claimed by the State of Maryland, Department of Natural Resources, Under Federal
            Aid Grants from the U.S. Fish and Wildlife Service from July 1, 1998 through June 30, 2000
            (01/24/2003) 1 Recommendation Unresolved
2003-E-0016 Costs Claimed by the State of Kansas Department of Wildlife and Parks, Under Federal Aid
            Grants from the U.S. Fish and Wildlife Service from July 1, 1999, through June 30, 2001
            (01/24/2003) 1 Recommendation Unresolved
2003-E-0018 Costs Claimed by the State of Nevada, Department of Conservation and Natural Resources,
            Division of Wildlife, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from
            July 1, 1996 through (02/26/2003) 7 Recommendations $1,031,611 Unresolved
2003-E-0020 Costs Claimed by the Commonwealth of Kentucky, Department of Fish and Wildlife
            Resources, Under Federal Aid Grants from the U.S. Fish and Wildlife Service from July 1,
            1996 through June 30, 1998 (03/04/2003) 1 Recommendation Unresolved

U.S. Geological Survey

1993-E-0339 Closing Statement, TGS Technology, Inc. (12/22/1992) 1 Recommendation        $786,501
            Unresolved

U.S. Virgin Islands

1998-E-0098 Claims Against the Federal Emergency Management Agency’s Community Disaster Loan,
            Government of the Virgin Islands (11/12/1997) 1 Recommendation $21,700 Unresolved

SINGLE AUDITS

Bureau of Indian Affairs

1996-A-1122 Northwestern Band of the Shoshoni Nation Fiscal Year December 30, 1994 (08/15/1996) 1
            Recommendation $8,940 Unresolved


                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 45
                                                                               Appendix 6 (continued)




2002-A-0265 Cheyenne & Arapaho Tribes of Oklahoma, Fiscal Year Ended December 31, 1999
            (05/10/2002) 1 Recommendation Unresolved
2002-A-0285 Big Valley Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 2000
            (05/17/2002) 4 Recommendations Unresolved
2002-A-0311 Chalkyitsik Village Council, Fiscal Year Ended September 30, 2000 (06/06/2002)
            3 Recommendations Unresolved
2002-A-0348 Scotts Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2000 (07/11/2002)
            1 Recommendation Unresolved
2002-A-0377 Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 2000 (08/01/2002)
            1 Recommendation Unresolved
2002-A-0396 Three Affiliated Tribes, Fiscal Year Ended September 30, 1998 (08/12/2002)
            2 Recommendations $57,108 Unresolved
2002-A-0401 Kayenta Community School, Fiscal Year Ended June 30, 2001 (08/16/2002)
            4 Recommendations Unresolved
2002-A-0425 Naa Tsis Aan Community School, Fiscal Year Ended June 30, 2001 (09/09/2002)
            1 Recommendation Unresolved
2002-A-0433 Winslow Residential Hall, Inc., Fiscal Year Ended June 30, 2001(09/11/2002)
            5 Recommendations Unresolved
2002-A-0446 Standing Rock Community Grant School, Fiscal Year Ended June 30, 2000
            (09/18/2002) 2 Recommendations $584 Unresolved
2002-A-0456 Little Singer Community School Board, Inc. and Little Singer Junior High School,
            Fiscal Year Ended June 30, 2001 (09/20/2002) 2 Recommendations Unresolved
2002-A-0457 Three Affiliated Tribes, Fiscal Year Ended September 30, 1999 (09/20/2002)
            9 Recommendations Unresolved
2002-A-0463 South Fork Band Council, Fiscal Year Ended September 30, 2000 (09/25/2002)
            4 Recommendations Unresolved
2002-A-0465 Loneman Day School, Fiscal Year Ended June 30, 2001 (09/25/2002)
            4 Recommendations Unresolved
2002-A-0468 Ponca Tribe of Nebraska, Fiscal Year Ended September 30, 2001 (09/27/2002)
            1 Recommendation Unresolved
2002-A-0477 San Juan Pueblo Board of Education, Fiscal Year Ended June 30, 2001 (09/30/2002)
            3 Recommendations Unresolved
2002-A-0480 Chilchinbeto Community School, Fiscal Year Ended June 30, 2001 (09/30/2002)
            4 Recommendations Unresolved
2003-A-0006 Quechan Indian Tribe, Fiscal Year Ended December 31, 1999 (10/15/2002)
            13 Recommendations Unresolved
2003-A-0032 Crazy Horse School, Fiscal Year Ended June 30, 2000 (10/25/2002) 1 Recommendation
            Unresolved
2003-A-0058 Oglala Sioux Tribe, Fiscal Year Ended December 31, 1999(11/08/2002)
            17 Recommendations $1,795,918 Unresolved
2003-A-0060 Mooretown Rancheria, Fiscal Year Ended December 31, 2001(11/12/2002)
            1 Recommendation Unresolved
2003-A-0064 Cloverdale Rancheria of Pomo Indians, Fiscal Year Ended December 31, 2000
            (11/25/2002) 6 Recommendations Unresolved
2003-A-0066 Pascua Yaqui Tribe of Arizona, Fiscal Year Ended September 30, 2001 (11/25/2002)
            6 Recommendations Unresolved

               Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                               46
Appendix 6 (continued)



2003-A-0071 Oglala Sioux Tribal Department of Public Safety, Fiscal Year Ended September 30,
            1999 (11/25/2002) 8 Recommendations $17,661 Unresolved
2003-A-0076 Picayune Rancheria of the Chukchansi Indian Tribe, Fiscal Year Ended December
            31, 1999 (11/27/2002) 1 Recommendation Unresolved
2003-A-0079 Turtle Mountain Band of Chippewa Indians, Fiscal Year Ended September 30, 2001
            (12/06/2002) 4 Recommendations $477,170 Unresolved
2003-A-0080 Trinidad Rancheria, Fiscal Year Ended December 31, 2001 (12/06/2002)
            1 Recommendation Unresolved
2003-A-0086 Native Village of Kwigillingok, Kwigillingok IRA Council, Fiscal Year Ended
            December 31, 2001 (12/13/2002) 2 Recommendations Unresolved
2003-A-0100 Pyramid Lake Paiute Tribe, Fiscal Year Ended December 31, 2000
            (12/20/2002) 18 Recommendations $1,374,912 Unresolved
2003-A-0108 Pleasant Point Passamaquoddy Tribal Council, Fiscal Year Ended September 30,
            2000 (01/15/2003) 15 Recommendations Unresolved
2003-A-0110 Yavapai-Prescott Indian Tribe, Fiscal Year Ended December 31, 2001
            (01/17/2003) 1 Recommendation Unresolved
2003-A-0122 Stevens Village Council, Fiscal Year Ended September 30, 2001
            (01/17/2003) 6 Recommendations Unresolved
2003-A-0129 St. Michaels Association for Special Education, Incorporated, Fiscal Year Ended
            September 30, 2001 (01/17/2003) 1 Recommendation Unresolved
2003-A-0130 Native Village of Selawik, Fiscal Year Ended December 31, 2001 (01/17/2003)
            1 Recommendation Unresolved
2003-A-0133 Three Affiliated Tribes, Fiscal Year Ended September 30, 2000
            (01/24/2003) 10 Recommendations Unresolved
2003-A-0134 Pueblo of Laguna, Fiscal Year Ended February 28, 2002 (01/24/2003) 2 Recommendations
            Unresolved
2003-A-0143 Tyme Maidu Tribe, Berry Creek Rancheria, Fiscal Year Ended December 31, 2001
            (01/23/2003) 2 Recommendations Unresolved
2003-A-0152 Northway Village Council, Fiscal Year Ended December 31, 1999 (01/30/2003)
             4 Recommendations $10,409 Unresolved
2003-A-0156 Aroostook Band of Micmacs, Fiscal Year Ended December 31, 2001
            (01/30/2003) 1 Recommendation Unresolved
2003-A-0160 Southern Ute Indian Tribe, Fiscal Year Ended September 30, 2001 (01/30/2003)
             4 Recommendations Unresolved
2003-A-0170 Round Valley Indian Tribes of the Round Valley Reservation, California, Fiscal
            Year Ended December 31, 2000 (02/05/2003) 6 Recommendations Unresolved
2003-A-0171 Cheyenne and Arapaho Tribe of Oklahoma, Fiscal Year Ended December 31, 2000
            (02/05/2003) 3 Recommendations Unresolved
2003-A-0173 Ch’ooshgai Community School, Fiscal Year Ended June 30, 2000 (02/07/2003)
             8 Recommendations $1,762 Unresolved
2003-A-0174 Ch’ooshgai Community School, Fiscal Year Ended June 30, 1999 (02/07/2003)
            6 Recommendations $6,954 Unresolved
2003-A-0178 Cocopah Indian Tribe, Fiscal Year Ended December 31, 2000 (02/05/2003)
            1 Recommendation $27,772 Unresolved
2003-A-0190 Dry Creek Rancheria Band of Pomo Indians, Fiscal Year Ended December 31, 2000
            (02/20/2003) 1 Recommendation $58,528 Unresolved

                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 47
                                                                                     Appendix 6 (continued)




2003-A-0191 Sherwood Valley Band of Pomo Indians, Fiscal Year Ended December 31, 2001
            (02/20/2003) 2 Recommendations Unresolved
2003-A-0192 Tuolumne Band of Me-Wuk Indians, Fiscal Year Ended December 31, 2001
            (02/20/2003) 1 Recommendation Unresolved
2003-A-0196 Porcupine School, Fiscal Year Ended June 30, 2000 (02/26/2003)
            1 Recommendation $50,351 Unresolved
2003-A-0200 Native Village of St. Michael, Fiscal Year Ended December 31, 1999
            (02/28/2003) 1 Recommendation $560 Unresolved
2003-A-0205 Twenty-Nine Palms Band of Mission Indians Special Revenue Fund, Fiscal Year
            Ended December 31, 1999 (02/28/2003) 2 Recommendations $22,321 Unresolved
2003-A-0207 Tunica-Biloxi Tribe of Louisiana, Fiscal Year Ended December 31, 2001(03/06/2003)
            1 Recommendation Unresolved
2003-A-0209 Chickaloon Village Traditional Council, Fiscal Year Ended December 31, 2000
            (03/03/2003) 2 Recommendations Unresolved
2003-A-0210 Bering Sea Fishermen’s Association, Fiscal Year Ended June 30, 2001 (03/06/2003)
            1 Recommendation Unresolved
2003-A-0212 Big Sandy Rancheria, Fiscal Year Ended December 31, 2000 (03/06/2003)
            7 Recommendations Unresolved
2003-A-0227 Native Village of Unalakleet, Fiscal Year Ended December 31, 2000 (03/06/2003)
            1 Recommendation $75,838 Unresolved
2003-A-0228 Native Village of Unalakleet, Fiscal Year Ended December 31, 1998 (03/06/2003)
            1 Recommendation $14,479 Unresolved

Bureau of Land Management

2003-A-0052 North Slope Borough, Fiscal Year Ended June 30, 2001 (11/04/2002)
            1 Recommendation Unresolved

National Park Service

1998-A-0194 Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1997
            (12/24/1997) 1 Recommendation Unresolved
1998-A-0229 National Institute for the Conservation of Cultural Property, Inc., Fiscal Year Ended
            December 31, 1996 (01/15/1998) 1 Recommendation Unresolved
1998-A-0627 South Carolina Department of Parks, Recreation and Tourism, Fiscal Year Ended
            June 30, 1996 (08/06/1998) 1 Recommendation Unresolved
1998-A-0687 National Conference of State Historic Preservation Officers, Fiscal Year Ended
            December 31, 1997 (09/25/1998) 1 Recommendation Unresolved
2000-A-0158 Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1998
            (12/17/1999) 1 Recommendation Unresolved
2000-A-0160 Ste. Genevieve, Missouri, Fiscal Year Ended September 30, 1998 (12/17/1999)
            1 Recommendation Unresolved
2000-A-0186 Allegheny Ridge Corporation, Fiscal Year Ended June 30, 1997 (01/13/2000)
            1 Recommendation Unresolved


                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                48
Appendix 6 (continued)




2001-A-0089 Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1999
            (12/14/2000) 1 Recommendation Unresolved
2002-A-0028 Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 2000
            (10/25/2001) 1 Recommendation Unresolved
2002-A-0060 Appalachian Trail Conference, Fiscal Year Ended December 31, 1999
            (11/16/2001) 1 Recommendation Unresolved
2002-A-0412 Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 2001
            (08/26/2002) 1 Recommendation Unresolved
2003-A-0043 National Academy of Public Administration Foundation and Affiliate, Fiscal Year
            Ended September 30, 2001 (10/31/2002) 2 Recommendations Unresolved
2003-A-0045 Silos and Smokestacks National Heritage Area, Fiscal Year Ended December 31,
            2001 (10/31/2002) 1 Recommendation Unresolved
2003-A-0172 National Park Foundation, Fiscal Year Ended June 30 2001 (02/07/2003)
            3 Recommendations Unresolved

Office of the Secretary

2000-A-0099 Pennsylvania State University, Fiscal Year Ended June 30, 1998 (11/19/1999)
            1 Recommendation $2,303 Unresolved
2001-A-0450 Connecticut College, New London, Connecticut, Fiscal Year Ended June 30, 1999
            (07/31/2001) 1 Recommendation $3,234 Unresolved
2003-A-0195 Department of Agriculture, Hawaii, Fiscal Year Ended June 30, 2000
            (02/20/2003) 1 Recommendation $12,269 Unresolved

Office of Territorial and International Affairs

2000-A-0062 Hawaii, Fiscal Year Ended June 30, 1998 (11/04/1999) 1 Recommendation
            $32,167 Unresolved

U.S. Fish and Wildlife Service

1997-A-0993 Commonwealth of Virginia, Fiscal Year Ended June 30, 1995 (08/08/1997)
             1 Recommendation Unresolved
1997-A-1180 Wisconsin, Fiscal Year Ended June 30, 1995 (09/05/1997) 1 Recommendation $26,410
             Unresolved
1997-A-1241 South Carolina, Fiscal Year Ended June 30, 1996 (09/17/1997) 1 Recommendation
             Unresolved
1998-A-0149 Arizona, Fiscal Year Ended June 30, 1996 (12/02/1997) 1 Recommendation
             Unresolved
2000-A-0237 Alaska, Fiscal Year Ended June 30, 1998 (02/11/2000) 1 Recommendation
             Unresolved
2001-A-0202 State of California, Fiscal Year Ended June 30, 1999 (01/29/2001)
             1 Recommendation Unresolved
2002-A-0402 New Hampshire, Fiscal Year Ended June 30, 2001 (08/16/2002)
             2 Recommendations $13,147 Unresolved

                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 49
                                                                               Appendix 6 (continued)



2002-A-0481 Montana, Fiscal Year Ended June 30, 2001 (09/30/2002) 4 Recommendations
            $49,935 Unresolved
2003-A-0004 National Fish and Wildlife Foundation, Fiscal Year Ended September 30, 2001
            (10/11/2002) 1 Recommendation Unresolved
2003-A-0198 The Tides Center, Fiscal Year Ended December 31, 2001
            (02/28/2003) 1 Recommendation Unresolved




               Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                               50
                                              Appendix 7
                 Summary of Internal Audit Reports Over 6 Months
                          Old Pending Corrective Action
                    April 1, 2003 Through September 30, 2003
     This is a listing of internal audit reports with management decisions over six months old for which
corrective action has not been completed. It provides the report number, title, issue date, and the number of
recommendations without final corrective action. These audits continue to be monitored by the Focus
Leader for Management Control and Audit Follow-up, Assistant Secretary Policy, Management and
Budget, for completion of corrective action.


Bureau of Indian Affairs

1995-I-1402     Wapato Irrigation Project, Bureau of Indian Affairs (09/30/1995) 1 Recommendation
1996-I-0641     Indian Irrigation Projects (03/29/1996) 1 Recommendation
2002-I-0020     Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                Statements for Fiscal Years 2001 and 2000 (03/15/2002) 5 Recommendations

Bureau of Land Management

1992-I-0828     Onshore Geophysical Exploration Fees Bureau of Land Management (05/26/1992)
                2 Recommendations
1995-I-0379     Follow-up of Recommendations Relating to Bureau of Land Management User
                Charges for Mineral-Related Document Processing (01/23/1995) 2 Recommendations
1995-I-0747     Right-of-Way Grants, Bureau of Land Management (03/31/1995) 6 Recommendations
1996-I-1267     Inspection and Enforcement Program and Selected Related Activities (09/20/1996)
                1 Recommendation
1997-I-1300     Issuance of Mineral Patents, Bureau of Land Management and Office of the Solicitor
                (09/30/1997) 1 Recommendation
1998-I-0551     Reimbursement of Firefighting Costs, Bureau of Land Management (07/27/1998)
                2 Recommendations
1999-I-0808     Cultural Resource Management, Bureau of Land Management (09/03/1999)
                2 Recommendations
1999-I-0677     Rangelands Improvement Program, Bureau of Land Management (07/28/1999)
                1 Recommendation
2001-I-0413     Land Exchange and Acquisition, Bureau of Land Management Utah State Office
                (07/31/2001) 1 Recommendation
2002-I-0047     GPRA Goal—Reduce Threats to Public Health, Safety and Property (09/25/2002)
                6 Recommendations
2003-I-0024     Independent Auditors’ Report on the Bureau of Land Management Financial Statements for
                Fiscal Years 2002 and 2001 (02/28/2003) 11 Recommendations
2003-I-0036     Management Issues Identified During the Audit of the Bureau of Land Management’s
                Financial Statements for Fiscal Year 2002 (03/17/2003) 4 Recommendations



                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 51
                                                                                   Appendix 7 (continued)




Bureau of Reclamation

1999-I-0588   Lower Brule Sioux Rural Water System, Mni Wiconi Rural Water Supply Project,
              Bureau of Reclamation (06/24/1999) 1 Recommendation
1999-I-0627   Oglala Sioux Rural Water Supply System, Mni Wiconi Rural Water Supply Project,
              Bureau of Reclamation (06/29/1999) 1 Recommendation
2000-I-0376   Concessions Managed by the Bureau of Reclamation (05/08/2000)
              1 Recommendation
2002-I-0004   Improvements Needed in Security Management of Information Technology Systems
              Supporting Energy and Water Operations (11/16/2001) 2 Recommendations
2002-I-0052   Review of Central Valley Project Responsibilities Transferred Under Direct Funding
              Agreements Between BOR and Three California Water Authorities (09/30/2002)
              2 Recommendations
2003-I-0020   Independent Auditors’ Report on the Bureau of Reclamation Financial Statements
              for Fiscal Year 2002 (02/21/2003) 8 Recommendations
2003-I-0037   Management Issues Identified During the Audit of the Bureau of Reclamation’s
              Fiscal Year 2002 Financial Statements (03/18/2003) 8 Recommendations

Marshall Islands

1999-I-0952   Marshall Islands Development Bank, Republic of the Marshall Islands (09/30/1999)
              7 Recommendations

Minerals Management Service

1996-I-1255   Selected Activities of the Royalty Management System (09/30/1996) 2 Recommendations
2003-I-0030   Independent Auditors; Report on the Minerals Management Service’s Financial
              Statements for Fiscal Years 2002 and 2001 (03/07/2003) 2 Recommendations

Multi-Office Audit

2000-I-0300   Supporting Documentation for Operators Participating in the Stripper Oil Well Property
              Royalty Rate Reduction Program (03/27/2000) 2 Recommendations
2001-I-0421   Audit of Bonding for Oil and Gas Wells on Indian Trust Lands (09/24/2001)
              1 Recommendation
2002-I-0011   Department of the Interior Integrated Credit Card Program (12/20/2001)
              3 Recommendations
2002-I-0018   U.S. Department of the Interior Fiscal Year 2001 Annual Departmental Report on
              Accountability (02/27/2002) 50 Recommendations
2003-I-0014   Independent Auditor’s Report on the U.S. Department of the Interior’s Fiscal Year 2002
              Annual Report on Performance and Accountability (01/31/2003) 37 Recommendations




              Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                              52
Appendix 7 (continued)




National Park Service

1997-I-0908     Automated Law Enforcement System, National Park Service (06/23/1997)
                1 Recommendation
1998-I-0406     Follow-up of Recommendations Concerning Utility Rates Imposed by the National Park
                Service (04/15/1998) 5 Recommendations
2001-I-0116     Collection And Use Of Concession Fees (01/11/2001) 1 Recommendation
2002-I-0045     Recreational Fee Demonstration Program, National Park Service and Bureau of Land
                Management (08/19/2002) 5 Recommendations
2003-I-0021     Independent Auditors’ Report on the National Park Service Financial Statements for Fiscal
                Year 2002 and 2001 (02/25/2003) 6 Recommendations
2003-I-0027     Management Issues Identified During the Audit of the National Park Service’s
                Fiscal Year 2002 Financial Statements (03/04/2003) 4 Recommendations

Office of the Secretary

2003-I-0038     Independent Auditors’ Report on the Interior Franchise Fund’s Financial Statements
                for Fiscal Years 2002 and 2001 (03/21/2003) 13 Recommendations
2003-I-0041     Independent Auditors’ Report on the Departmental Offices’ Financial Statements
                for Fiscal Years 2002 and 2001 (03/31/2003) 16 Recommendations

Office of Special Trustee for American Indians

1997-I-1167     Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians (09/22/1997)
                1 Recommendation
1997-I-1168     Judgment Funds Awarded to the Navajo Nation (09/22/1997) 1 Recommendation
1997-I-1169     Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997) 1 Recommendation
1998-I-0703     Agricultural Leasing and Grazing Activities, Fort Peck Agency (09/30/1998)
                2 Recommendations
2001-I-0411     Independent Auditors’ Report on the Financial Statements for Fiscal Years 2000 and 1999 for
                the Office of Special Trustee for American Indians Tribal and other Special Trust Funds and
                Individual Indian Monies Trust Funds Managed by the Office of Trust Funds Management
                (06/24/2001) 21 Recommendations
2002-I-0027     Independent Auditors’ Report on the Office of Special Trustee for American Indians Tribal
                and Other Trust Funds and Individual Indian Monies Trust Funds Financial Statements for
                FYS 2001 and 2000 (04/25/2002) 3 Recommendations
2003-I-0019     Independent Auditors’ Report on the Tribal and Other Trust Funds and Individual Indian
                Monies Trust Funds Financial Statements for Fiscal Years 2002 and 2001 Managed by the
                Office of Trust Funds, OST (02/19/2003) 8 Recommendation
2003-I-0028     Management Letter for the Office of the Special Trustee for American Indians
                Financial Statement Audit Fiscal Year 2002 (03/05/2003) 7 Recommendations




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 53
                                                                                     Appendix 7 (continued)




Office of Surface Mining Reclamation and Enforcement

2003-I-0035   Management Issues Identified During the Audit of the Office of Surface Mining Reclamation
              and Enforcement’s Fiscal Year 2002 Financial Statements (03/17/2003)
              4 Recommendations

Office of the Secretary

2001-I-0407   Independent Auditors Report on the Office of the Secretary’s Financial Statement for Fiscal
              Year 2000 (05/31/2001) 7 Recommendations

U.S. Fish And Wildlife Service

1997-I-1305   Automated Law Enforcement System, U.S. Fish and Wildlife Service (09/30/1997)
              2 Recommendations
2000-I-0050   Miscellaneous Receipts, U.S. Fish and Wildlife Service (11/09/1999) 12 Recommendations
2003-I-0039   Independent Auditors’ Report on the U.S. Fish And Wildlife Service’s Financial
              Statements for Fiscal Year 2002 and 2001 (03/26/2003) 16 Recommendations

U.S. Geological Survey

1999-I-0381   Additional Controls Needed over Data Processing Environment at U.S. Geological
              Survey Reston Enterprise Data Services Center (03/24/1999) 2 Recommendations
2002-I-0054   Independent Auditors Report on the U.S. Geological Survey’s Financial Statements
              for Fiscal Year 2001 (09/30/2002) 22 Recommendations
2003-I-0042   Improvements Needed in Security Over Information Technology Systems Supporting
              Scientific Objectives of the U.S. Geological Survey (03/31/03) 24 Recommendations

U.S. Virgin Islands

2002-I-0043   Grants for the Construction of Health Care Facilities, Department of Health,
              Government of the Virgin Islands (09/20/2002) 3 Recommendations




              Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                              54
                                             Appendix 8

                             Summary of Insular Area Reports
                              With Open Recommendations
                                  Over Six Months Old
     Note: These Insular Area reports contain recommendations made specifically to Insular Area
governors and other Insular Area officials, who do not report to the Secretary and are not subject to the
policy, guidance, and administrative oversight established by the Assistant Secretary for Policy, Management
and Budget.

INTERNAL AUDITS
American Samoa
2002-I-0003     Assessment and Collection of Taxes, American Samoa Government
                (11/15/2001) 13 Recommendations $7,148,769 Unresolved

Guam
1998-I-0264     Legislature Capital Improvement Fund, Guam Legislature, Government of Guam
                (02/20/1998) 4 Recommendations $4,159,110 Unresolved
2001-I-0417     Loan Programs, Guam Economic Development Authority, Government of Guam
                (09/21/2001) 4 Recommendations Unresolved
2001-I-0419     Qualifying Certificate Program, Guam Economic Development Authority,
                Government of Guam (09/30/2001) 6 Recommendations $59,218,806 Unresolved

Marshall Islands
1994-I-0021     Capitol Relocation Project, Republic of the Marshall Islands (10/18/1993)
                2 Recommendations Unresolved

Northern Mariana Islands

1994-I-0936     Follow-up of Recommendations Concerning the Economic Development Loan
                Fund, Commonwealth Development Authority (07/18/1994) 1 Recommendation
                Unresolved
1996-I-0596     Management of Public Land, Commonwealth of the Northern Mariana Islands
                (03/20/1996) 6 Recommendations $145,877,257 Unresolved

U.S. Virgin Islands

1991-I-0467     Follow-up of Recommendations Contained In Report on the Road Fund,
                Government of the Virgin Islands (02/19/1991) 1 Recommendation Unresolved
1993-I-0363     Inmate Care, Rehabilitation, & Safety, Bureau of Corrections, Government of the
                Virgin Islands (12/31/1992) 10 Recommendations Unresolved

                Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                55
                                                                                  Appendix 8 (continued)



1993-I-0572   Supply and Equipment Management, Department of Education, Government of
              the Virgin Islands (02/19/1993) 9 Recommendations $310,000 Unresolved
1993-I-0670   Personnel, Property Management, and Procurement Practices, Bureau of Corrections,
              Government of the Virgin Islands (03/11/1993) 14 Recommendations $265,823 Unresolved
1997-I-0040   Division of Agriculture, Department of Economic Development and Agriculture,
              Government of the Virgin Islands (10/21/1996) 8 Recommendations $90,000 Unresolved
1997-I-0243   Workmen’s Compensation Program, Government of the Virgin Islands
              (12/30/1996) 15 Recommendations $2,530,000 Unresolved
1998-I-0188   Internal Revenue Taxes, Bureau of Internal Revenue, Government of the Virgin Islands
              (12/30/1997) 1 Recommendation Unresolved
1998-I-0191   Building Permit Fees, Department of Planning and Natural Resources, Government
              of the Virgin Islands (12/30/1997) 7 Recommendations $143,446 Unresolved
1998-I-0263   Sewage System User Fees, Government of the Virgin Islands (02/20/1998)
              5 Recommendations $897,212 Unresolved
1998-I-0384   Hurricane-Related Contracting, Department of Education, Government of the
              Virgin Islands (03/31/1998) 2 Recommendations $5,418 Unresolved
1998-I-0468   Follow-up of Recommendations Relating to the Bureau of Corrections, Department of
              Justice, Government of the V.I. (05/29/1998) 6 Recommendations Unresolved
1998-I-0670   Interfund Loans and Federal Grant Balances, Government of the Virgin Islands
              (09/09/1998) 11 Recommendations $120,000,000 Unresolved
1999-I-0365   Follow-up of Recommendations Relating to Personnel Management Practices, Division of
              Personnel, Government of the Virgin Islands (03/26/1999) 3 Recommendations
              $24,300,000 Unresolved
2001-I-0107   Administrative Functions, Legislature of the Virgin Islands, Government of the
              Virgin Islands (12/29/2000) 8 Recommendations $1,320,293 Unresolved
2002-I-0009   Virgin Islands Housing Finance Authority, Government of the Virgin Islands
              (12/31/2001) 1 Recommendation Unresolved
2002-I-0042   Federal Highway Grants, Department of Public Works, Government of the Virgin
              Islands (08/30/2002) 1 Recommendation Unresolved
2002-I-0043   Grants for the Construction of Health Care Facilities, Department of Health,
              Government of the Virgin Islands (09/20/2002) 2 Recommendations Unresolved
2003-I-0002   Public Finance Authority, Government of the Virgin Islands (11/22/2002)
              8 Recommendations $30,891,687 Unresolved
2003-I-0003   Compliance with the Memorandum of Understanding Between the Governor of the Virgin
              Islands and the Secretary of the Interior (01/06/2003) 6 Recommendations Unresolved
2003-I-0012   Grants for the Solid Waste and Wastewater Disposal Projects, Department of Public Works,
              Government of the Virgin Islands (02/18/2003) 2 Recommendations Unresolved
2003-I-0032   Grants for the Hurricane Recovery, Government of the Virgin Islands (03/28/2003)
              1 Recommendation Unresolved

SINGLE AUDITS
Federated States of Micronesia
2002-A-0237 Federated States of Micronesia National Government, Fiscal Year Ended September
            30, 2000 (04/03/2002) 1 Recommendations $329,504 Unresolved

               Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                               56
Appendix 8 (continued)



Guam

2001-A-0289 Government of Guam, Fiscal Year Ended September 30, 1999 (3/26/2001)
            35 Recommendations $3,147,789 Unresolved
2002-A-0164 Government of Guam, Fiscal Year Ended September 30, 2000 (01/30/2002)
            1 Recommendation $3,526,590 Unresolved

Kosrae
1994-A-0367 State Of Kosrae, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
            (02/24/1994) 9 Recommendations Unresolved

Marshall Islands
2003-A-0109 Republic of the Marshall Islands, Fiscal Year Ended September 30, 2001 (01/15/2003)
            5 Recommendations Unresolved

Northern Mariana Islands
2001-A-0269 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1999
            (03/08/2001) 43 Recommendations $146,174 Unresolved
2002-A-0180 Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 2000
            (02/19/2002) 1 Recommendation Unresolved

Palau

1992-A-0885 Republic of Palau, Fiscal Year Ended September 30, 1989 (06/05/1992)
            1 Recommendation $40,262 Unresolved
2001-A-0261 Palau Community Action Agency, Fiscal Year Ended September 30, 1999
            (03/05/2001) 10 Recommendations Unresolved
2003-A-0154 Republic of Palau National Government, Fiscal Year Ended September 30, 2001
            (01/31/2003) 2 Recommendations Unresolved

Pohnpei
1994-A-0527 State of Pohnpei, Federated States of Micronesia, Fiscal Year Ended September 30,
                1992 (04/19/1994) 1 Recommendation $2,764 Unresolved

U.S. Virgin Islands

2003-A-0167 Government of the Virgin Islands, Fiscal Year Ended September 30, 2001
            (02/04/2003) 3 Recommendations Unresolved




                 Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                                 57
                                         Appendix 9


                     Program Integrity Reports Issued
       During the Six-Month Period That Ended September 30, 2003

2003-I-0062 Law Enforcement Follow-up (August 2003)
2003-I-0063 Review of National Icon Park Security (August 2003)




               Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                               58
                                       Appendix 10

                  Cross References to the Inspector General Act

                                                                                     Page
Inspector General Act of 1978, as amended

Section 4(a)(2)         Review of Legislation and Regulations                        N/A*

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies                3-26

Section 5(a)(2)         Recommendations for Corrective Action with Respect
                        to Significant Problems, Abuses, and Deficiencies             3-26

Section 5(a)(3)         Significant Recommendations from Agency's Previous
                        Reports on which Corrective Action has not been
                        Completed                                                    51-54

Section 5(a)(4)         Matters Referred to Prosecutive Authorities and Resulting
                        Convictions                                                     ii

Section 5(a)(5)         Matters Reported to the Head of the Agency                   N/A*

Section 5(a)(6)         List of Audit Reports Issued during the Reporting Period     28-37

Section 5(a)(7)         Summary of Significant Reports                                3-26

Section 5(a)(8)         Statistical Table – Questioned Costs                           40

Section 5(a)(9)         Statistical Table – Recommendations that Funds be
                        Put to Better Use                                              41

Section 5(a)(10)        Summary of Audit Reports Issued before the
                        Commencement of the Reporting Period for which
                        no Management Decision has been made                         43-20

Section 5(a)(11)        Significant Revised Management Decisions made
                        during the Reporting Period                                  N/A*

Section 5(a)(12)        Significant Management Decisions with which the
                        Inspector General is in Disagreement                         N/A*

Section 5(a)(13)        Information Described Under Section 05(b) of the Federal
                        Financial Management Improvement Act of 1996                 N/A*




*N/A: Nothing to report this period.


             Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
                                             59
                                                 General Information




Send Requests for Publications to:


 U.S. Department of the Interior                        (202) 219-3841
 Office of Inspector General
 1849 C Street, NW
 Mail Stop 5341, MIB
 Washington, D.C. 20240



 Facsimile Number:                                      (202) 208-4998



 World Wide Web Site:                                   www.oig.doi.gov




 Photos Courtesy of Microsoft Clip Art Gallery



Semiannual Report to the Congress: April 1, 2003 - September 30, 2003
